    OFFICE OF INSPECTOR GENERAL

SEMIANNUAL REPORT TO THE CONGRESS





       October 1, 2008—March 31, 2009

    OFFICE OF INSPECTOR GENERAL

SEMIANNUAL REPORT TO THE CONGRESS

         October 1, 2008—March 31, 2009
                                Inspector General


                        HOTLINE

The Office of Inspector General (OIG) maintains a Hotline to make it easy to report allegations of fraud,
waste, abuse, mismanagement, or misconduct in the programs and operations of the United States Agency
for International Development (USAID), the Inter-American Foundation (IAF), the African Development
Foundation (ADF), and the Millennium Challenge Corporation (MCC). USAID, IAF, ADF, and MCC
employees, contractors, and program participants or the general public may report allegations directly to the
OIG. The Inspector General Act of 1978 and other laws protect persons making hotline complaints. Submit
complaints by e-mail, telephone, or mail to:


Phone        1-202-712-1023
             1-800-230-6539

E-mail       ig.hotline@usaid.gov

Mail         USAID OIG HOTLINE
             P.O. Box 657
             Washington, DC 20044-0657

Individuals who contact the Hotline are not required to identify themselves. However, OIG encourages
those who report allegations to identify themselves so they can be contacted if additional questions arise as
OIG evaluates their allegations. Pursuant to the Inspector General Act of 1978, the Inspector General will
not disclose the identity of an individual who provides information unless that individual consents or unless
the Inspector General determines that such disclosure is unavoidable during the course of an investigation.
You may request confidentiality when using the telephone or mail.

If you use e-mail or the online complaint form, OIG cannot guarantee your privacy because electronic
e-mail systems are not secure and your online complaint has not been encrypted for transmission to us.
By submitting your complaint via email or Internet, you acknowledge that your privacy is not guaranteed
and that you are doing so at your own risk. If you are not comfortable submitting via the Internet, we
recommend that you contact the telephone numbers above or print out the complaint form and submit it via
fax or mail.
CONTENTS


MESSAGE FROM THE INSPECTOR GENERAL................................................................................ 3


INTRODUCTION ............................................................................................................................................. 5


SEMIANNUAL REPORT TO THE CONGRESS.................................................................................. 7


      UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT (USAID)

      UNITED STATES AFRICAN DEVELOPMENT FOUNDATION (USADF)

      INTER-AMERICAN FOUNDATION (IAF)


SIGNIFICANT ACCOMPLISHMENTS—USAID............................................................................... 9


      PEACE AND SECURITY
         Afghanistan/Pakistan ................................................................................................................................... 9

         Iraq ..............................................................................................................................................................12

         West Bank/Gaza ........................................................................................................................................14


      JUST AND DEMOCRATIC GOVERNMENT
         Democracy ..................................................................................................................................................15

         Human Rights.............................................................................................................................................15


      ECONOMIC GROWTH AND PROSPERITY
        Fiscal Reform ..............................................................................................................................................17

        Economic Security ......................................................................................................................................18


      INVESTMENT IN PEOPLE
         Health .........................................................................................................................................................19

         Education ....................................................................................................................................................22


      MANAGEMENT CAPABILITIES
        Financial Management ..............................................................................................................................24

        Management Accountability ......................................................................................................................25


SIGNIFICANT ACCOMPLISHMENTS—USADF.............................................................................27


SIGNIFICANT ACCOMPLISHMENTS—IAF .....................................................................................29


APPENDIX 1: REPORTING REQUIREMENTS—USAID, USADF, and IAF........................31


APPENDIX II: SUMMARY TABLES—USAID, USADF, and IAF................................................65





                                                                                                SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009                 1
       CONTENTS (con’t)

      SEMIANNUAL REPORT TO THE CONGRESS—MILLENNIUM CHALLENGE

      CORPORATION (MCC) ..............................................................................................................................71


      EXECUTIVE SUMMARY ..............................................................................................................................73


      SIGNIFICANT ACCOMPLISHMENTS—MCC ..................................................................................75


           ECONOMIC GROWTH AND PROSPERITY
                 Compact Programs .....................................................................................................................................75

                 Economic Security ......................................................................................................................................77


           MANAGEMENT CAPABILITIES
                 Financial Management ..............................................................................................................................78

                 Fund Accountability Statements ................................................................................................................78


      APPENDIX III: REPORTING REQUIREMENTS—MCC ..............................................................87


      APPENDIX IV: SUMMARY TABLE—MCC..........................................................................................99


      APPENDIX V: ABBREVIATIONS ..........................................................................................................103





2   USAID OFFICE OF INSPECTOR GENERAL
MESSAGE FROM THE INSPECTOR GENERAL

I am pleased to present the Semiannual Report to the Congress for the 6-month period ending March 31, 2009. This
report, issued in accordance with the requirements of the Inspector General Act of 1978, as amended, features
highlights of oversight functions of the Office of Inspector General (OIG) for the U.S.Agency for International
Development (USAID), the United States African Development Foundation (USADF), the Inter-American
Foundation (IAF), and the Millennium Challenge Corporation (MCC).

During the reporting period, OIG activities resulted in:

    •   225 audits issued
    •   $19,881,987 in recommendations
    •   55 cases opened and 47 cases closed
    •   1 arrest, 2 indictments, and 2 convictions
    •   19 administrative actions
    •   $67,988,044 in investigative recoveries
    •   42 fraud awareness briefing sessions and 1,214 attendees
    •   Financial management training sessions in 4 countries and approximately 350 attendees

The efforts of our employees around the world demonstrate our commitment to improving foreign assistance
programs. Sustainable development is a key instrument in America’s efforts to address the global issues of health,
hunger, poverty, rule of law, and political and economic instability. Our work seeks to ensure that American
taxpayers’ dollars are being spent wisely and effectively and that these investments are making a beneficial
difference in people’s lives.

Among our top priorities is oversight of activities in Afghanistan, where our work since 2002 has paralleled
the evolution of USAID’s programs from relief and stabilization to reconstruction to sustainable development.
Programs there attempt to create economic growth, effective and representative governance, and the human
capital base that will eliminate conditions that contribute to extremism. OIG also provides continuing oversight
of programs in Iraq, where reconstruction and development programs focus on community stabilization,
economic governance, and national capacity building. In February 2009, in testimony to the Commission on
Wartime Contracting in Iraq and Afghanistan, I described OIG’s oversight activities in these countries as well
as the challenges we continue to face. In Pakistan, development programs aim to improve the lives of the poor
and build support for Pakistan’s decision to join international efforts to thwart further terrorist recruitment.
Another priority area for OIG is oversight of programs to combat HIV/AIDS, malaria, and tuberculosis. Our
recommendations have involved strengthening contract oversight, addressing security concerns, and improving
data integrity and quality.

In addition to working toward improving USAID programs and operations, we have a responsibility to prevent
fraud, waste, and abuse in U.S. foreign assistance programs. Our investigators have worked diligently to ensure
that appropriate action is taken against those who would illegally divert U.S. Government funds—a problem of
increasing importance in today’s environment of global economic uncertainty and limited Federal resources.

Within OIG, we recognize that we must work also to improve our own programs and initiatives by continually
reexamining our strategies and goals and by taking advantage of technologies that enable us to better implement
programs and respond to our stakeholders.

This report further describes OIG activities and achievements and includes comprehensive statistics and
data regarding our efforts. OIG continues to pursue a collaborative, proactive, and results-oriented approach
in support of USAID, USADF, IAF, and MCC programs and operations. We look forward to working with the
Congress and our partners and stakeholders to continue to improve the efficiency and effectiveness of
U.S. foreign assistance programs.


                                                                 Donald A. Gambatesa



                                                             SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   3
4   USAID OFFICE OF INSPECTOR GENERAL
INTRODUCTION

History and Mandated Authority
USAID’s OIG was established on December 16, 1980, by statutory amendment to the Foreign Assistance
Act of 1961.1 On December 29, 1981, the President signed the International Security and Development
Cooperation Act of 1981,2 bringing the USAID Inspector General under the purview of the Inspector
General Act of 1978.3 OIG assumed audit and investigative oversight of USADF and IAF in 1999,4 and of
MCC in 2004.5

The Inspector General Act of 1978, as amended, authorizes the Inspector General to conduct and supervise
audits and investigations. OIG’s mission is to protect and enhance the integrity of U.S. foreign assistance
programs and operations administered by USAID, USADF, IAF, and MCC. Some of our work is mandated
by statute or other requirements, and other work is performed at the discretion of OIG. Each decision
to perform specific work is made after considering the risks associated with the agencies’ programs and
assessing potential vulnerabilities in internal controls.


Areas of Responsibility
OIG manages and conducts its audit and investigative oversight from its headquarters in Washington, DC,
and six regional offices located in Baghdad, Iraq; Cairo, Egypt; Dakar, Senegal; Manila, Philippines; Pretoria,
South Africa; and San Salvador, El Salvador. We are in the process of establishing permanent presence
postings in Afghanistan and Pakistan.

Audit activities include performance audits of programs and management systems, financial statement
audits required under the Chief Financial Officers Act of 1990,6 audits related to financial accountability
of grantees and contractors and audits of information technology systems. Investigations of criminal, civil,
and administrative violations cover all facets of these worldwide operations. OIG also conducts financial
management training, proactive investigations and fraud awareness training, develops and distributes fraud
awareness literature and audiovisual aids, and offers advice on antifraud strategies.


Joint Work and Partners
OIG participates on task forces and cooperates with other interagency groups. In this reporting period,
OIG contributed to task forces to provide oversight for accountability and transparency in USAID
operations in Afghanistan and Pakistan and to assist the Department of Justice in addressing procurement
and grant fraud, especially in Iraq and Afghanistan.

USAID Afghanistan/Pakistan Task Force. The USAID Afghanistan/Pakistan Task Force seeks to make USAID
assistance to U.S. Government reconstruction and development efforts in Afghanistan and Pakistan as
effective as possible by providing analyses, strategies, and recommendations and by cultivating interagency




1.	   International Security and Development Cooperation Act of 1980, Public Law 96–533; Foreign Assistance Act of 1961,
      Public Law 87–195.
2.	   Public Law 97–113.
3.	   Public Law 95–452.
4.	   Admiral James W. Nance and Meg Donovan Foreign Relations Authorizations Act, Fiscal Years 2000 and 2001,
      Public Law 106–113,Appendix G.
5.	   Millennium Challenge Act of 2003, Public Law 108–199, Division D,Title VI.
6.	   Public Law 101–576.


                                                                      SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   5
      coordination and cooperation. The task force includes an OIG representative to respond to the
      Agency’s oversight needs and to promote accountability and transparency in these two countries critical
      to U.S. foreign policy. Recently, the Inspector General, the Deputy Special Inspector General for Iraq
      Reconstruction, the Special Inspector General for Afghanistan Reconstruction, and a representative from
      the Government Accountability Office addressed the task force. They explained their coordinated oversight
      strategies and responded to questions from task force members.

      National Procurement Fraud Task Force. For the past 2 years, OIG has participated on two Department
      of Justice task forces—the National Procurement Fraud Task Force (NPFTF) and the International
      Contract and Corruption Fraud Task Force (ICCTF). The mission of both task forces is to promote the
      early detection, prevention, and prosecution of procurement and grant fraud associated with increased
      contracting activity for national security and other Government programs. OIG’s participation in the
      NPFTF has required the full-time participation of some Washington-based investigators. OIG’s participation
      in the ICCTF has required that we increase our coverage of Iraq and Afghanistan by adding one investigator
      to our Baghdad office and one to our Manila office. As a result of our participation, our investigators have
      increased their contributions in the execution of search warrants and other law enforcement activities
      worldwide.


      OIG Program Areas and Priorities
      OIG structures its work to achieve progress in worldwide programs that address the following priorities:

           •    Peace and security
           •    Just and democratic government
           •    Investment in people
           •    Economic growth and prosperity
           •    Humanitarian assistance

      OIG audits have also included recommendations to improve the infrastructure of USAID systems and
      operations to increase the efficiency of the work the Agency undertakes.




6   USAID OFFICE OF INSPECTOR GENERAL
            SEMIANNUAL REPORT TOTHE CONGRESS

                            FOR

UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT (USAID)

  UNITED STATES AFRICAN DEVELOPMENT FOUNDATION (USADF)

                            AND

              INTER-AMERICAN FOUNDATION (IAF)





                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   7
8   USAID OFFICE OF INSPECTOR GENERAL
SIGNIFICANT ACCOMPLISHMENTS—USAID
PEACE AND SECURITY

Afghanistan/Pakistan
Audit of USAID/Afghanistan’s Higher Education Project. In 2005, Afghanistan had one of the world’s lowest
percentages of citizens who had achieved an education beyond high school—less than 0.15 percent. In the
past 25 years, veteran Afghan high school teachers have had few opportunities to improve their teaching
methods and course content.Younger high school teachers rarely have had advanced degrees; many had
graduated only from the secondary school in which they were teaching. Because few in either group
possessed strong skills in a second, international language, the teachers were unable to access current
educational materials and research. No university had what might be considered a minimally acceptable
number of books for a university library.

USAID/Afghanistan’s Higher Education Project seeks to strengthen the Afghan educational system and to
improve access to higher education throughout the country. In January 2006 USAID/Afghanistan awarded a
5-year, $38 million cooperative agreement to build Afghanistan’s sustainable capacity to deliver high-quality
education for secondary school teachers. The training would take place at 16 professional development
centers at 4-year universities in Afghanistan as well as in programs abroad. At the end of the 5-year project,
the centers would take full responsibility for the reformed systems and leadership in teacher training and
support. OIG conducted an audit of the project to determine whether it had succeeded in establishing the
centers and improving the teaching capabilities of secondary school teachers.

The audit found that the project had achieved some of its objectives. The project had provided training in
teaching methods and basic information technology skills, as well as graduate-level courses in education,
to faculties at the professional development centers. In addition, the project had presented workshops
and seminars on institutional and leadership development and trained faculty members abroad in U.S. and
third-country certificate and graduate degree programs. High school teachers who participated in the
project’s different activities were exposed to new and more effective teaching methodologies. They also
improved their English-language skills through the English courses provided and thus became better able
to use educational materials beyond those available in their local language. However, the project did not
meet its objectives of enhanced collaboration between the Ministry of Education and the Ministry of Higher
Education or of improved mechanisms for review and modification of a curriculum for teacher preparation.

OIG recommended that the mission define critical performance indicators and ensure that the
implementer’s indicators are aligned with those of the mission. The mission should intervene with the
Ministry of Education and Ministry of Higher Education to reach an agreement on collaboration to further
the Higher Education Project. Technical oversight of the project had not complied with the requirements of
USAID’s policies, and the mission should bring its oversight into alignment with these policies. The mission
also should develop an exit strategy so that key services of professional training will continue after the
project ends.

The report included four recommendations. Management decisions have been reached on all four
recommendations, and final action was taken on one.

(Audit Report No. 5-306-09-002-P)




                                                           SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   9
      USAID Employee Resigns in Lieu of Termination for Contract Fraud. A USAID employee responsible for
      purchasing equipment and supplies for the mission in Afghanistan resigned after an investigation uncovered
      conflicts of interest and fraud. The employee was found to be conducting business with people to whom he
      was personally connected, and he produced false records from a nonexistent business as proof of various
      business transactions. Some transactions were cancelled as a result of the investigation, saving USAID over
      $500,000.

      Savings Mount to $14 Million in Case Against Contractor. OIG previously reported that a contractor
      responsible for building small-scale infrastructure projects in Afghanistan, under a cooperative agreement
      with USAID, had withdrawn more than $6 million from a USAID letter of credit without explanation and
      had spent an additional $1.7 million without authorization. Further, some projects were not completed, and
      others had defects and warranty issues, including some life-threatening oversights. Projects had numerous
      design errors, repairs left undone, and equipment and materials never installed that had been billed as
      completed. During this reporting period, in response to the investigation, the contractor was ordered to
      pay an additional $612,870 in bills for collection, and USAID saved close to $14 million through cancellation
      of contracts related to the cooperative agreement.

      USAID Subcontractors Arrested and Suspended Indefinitely From Business With the
      U.S. Government. Pursuant to indictments previously reported, four USAID subcontractor principals
      were suspended from doing business with the U.S. Government. They had been charged with conspiracy,
      major fraud, and wire fraud in connection with rebuilding efforts in a high-risk country. The subcontractors
      defrauded USAID by obtaining reimbursement for inflated expenses purportedly incurred for rental
      vehicles, fuel, and security personnel. These false invoices inflated the amounts the contractor actually paid
      for rental vehicles and fuel.

      The USAID contractor, its owners, and two former employees had been indicted for conspiring to defraud
      USAID of approximately $3 million during the performance of the contract. Subsequent to the indictment,
      the owners and a former employee were arrested. The remaining former employee, a local citizen, is
      serving a 2-year sentence for his involvement with the fraud. In addition, USAID suspended indefinitely all
      four employees and the corporation from doing business with the Government.

      Audit of USAID/Pakistan’s Earthquake Reconstruction Activities. In October 2005, residents of northern
      Pakistan experienced a 7.6 magnitude earthquake that claimed more than 74,000 lives, destroyed
      272,000 buildings, and left more than 3.5 million people homeless. The Islamic Republic of Pakistan
      established the Earthquake Reconstruction and Rehabilitation Authority to coordinate and oversee all
      reconstruction activities. To help Pakistan recover and to provide immediate assistance to earthquake-
      affected areas, in January 2006, the U.S. Government and the Pakistani Government signed a $200 million
      grant agreement.

      OIG conducted an audit of USAID/Pakistan’s earthquake reconstruction activities to determine whether
      the mission had succeeded in providing effective assistance and helped those affected by the earthquake.
      OIG focused on two activities under the earthquake reconstruction program: efforts to improve
      livelihoods and the construction of earthquake-resistant schools and health clinics.

      USAID/Pakistan’s activities to improve livelihoods and to construct schools and health facilities achieved
      most, but not all, of their intended results. The program achieved its goals for the percentage of change in
      rural income of the targeted population and for the number of individuals who received U.S. Government-
      supported, short-term agricultural training. For example, the mission established a dairy association to
      link milk producers to buyers. The dairy association has about 1,200 members, a majority of whom are
      women. Also, activities aimed at developing agriculture and tourism resulted in supporting about 1,800 new


10   USAID OFFICE OF INSPECTOR GENERAL
and existing enterprises that employ more than 8,500 people. Results were not as strong for reconstruction
of schools and health facilities. Although the mission succeeded in engaging local communities in these
construction projects, actual construction was delayed or hampered by factors such as lack of mission staff, lack
of suitable sites, design flaws, unanticipated additional work, problems with subcontractors, and rising prices.
Since the reasons for the delay either were resolved or were beyond the mission’s control, this audit did not
make any recommendations on this issue.




                                                                            Temporary school site
                                                                            on land donated by the
                                                                            community in the Bagh
                                                                            District in Pakistan.
                                                                            (Photo by RIG/Manila)




                   A girls’ school under
               construction in the Bagh
                    District in Pakistan.
                 (Photo by RIG/Manila)




                                                         SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   11
      Thus, the program’s impact was mixed. The livelihoods activities program did contribute to increasing rural
      incomes by about 38 percent but, because the mission had not completed any construction of schools or
      health facilities, the impact of these facilities on local communities could not be assessed. Moreover, the
      mission did not perform the evaluations of contractor performance and data quality and did not approve
      plans to manage the contractor’s performance—actions that could have ensured better acquisition decisions
      and superior products and services.

      OIG recommended that USAID/Pakistan’s contracting office document contracting processes and provide
      training to its contracting staff; evaluate the implementing contractor’s performance; change a mission policy
      to make specific staff responsible for approving partner and contractor performance management plans; and
      perform a data quality assessment on the earthquake reconstruction activities.

      The report included four recommendations, and management decisions have been reached on all of the
      recommendations.

      (Audit Report No. 5-391-09-001-P)


      Iraq
      Audit of USAID/Iraq’s Oversight of Private Security Contractors in Iraq. USAID relies on private security
      contractors (PSCs) to provide a variety of security services for its programs in Iraq, including protection of
      individuals, nonmilitary transport convoys, and buildings. By providing needed security for reconstruction
      and stabilization activities in Iraq, PSCs contribute an essential service and are viewed as vital to efforts to
      bring peace to this country. Nevertheless, the use of armed contractors to perform security tasks, coupled
      with prior incidents involving these contractors, has raised concerns about the level of accountability and
      oversight of these firms.

      USAID/Iraq does not maintain any direct contracts with private security contractors—security services are
      procured by the mission’s implementing partners (contractors and grantees) who have primary responsibility
      for oversight. This audit was conducted to determine whether USAID/Iraq had managed its contracts and
      grant agreements to ensure that such oversight was being exercised.

      The audit found that USAID’s implementing partners were not adequately overseeing the PSCs’ reporting of
      serious incidents to ensure that such incidents were reported properly. This was the case at all three of the
      implementing partners visited, as evidenced by the partners’ lack of familiarity with the prescribed reporting
      procedures as well as the limited records on file to document previously reported incidents. Often relying
      on the PSCs to report these incidents, partners often felt little need to become involved in overseeing the
      reporting process. As a result, partners were not in a position to detect reporting deficiencies—such as
      the ones identified by the audit—allowing some incidents to be reported improperly or, in one case, not
      reported at all. The audit also noted that incident reports issued by the PSCs were often not received by
      USAID/Iraq. To address these issues, the OIG report contained two recommendations for USAID/Iraq
      to require its implementing partners to (1) establish procedures for monitoring the reporting of serious
      incidents and (2) report future incidents directly to the mission in conjunction with its normal incident
      reporting procedures.

      Management decisions have been reached on both recommendations.

      (Audit Report No. E-267-09-002-P)




12   USAID OFFICE OF INSPECTOR GENERAL
Audit of USAID/Iraq’s National Capacity Development Program. The emerging Government of Iraq inherited
a governance apparatus that lacked transparency, accountability, and inter-ministerial coordination because
it was composed of disorganized institutions with poorly managed civil servants. The Iraqi ministries lacked
interagency coordination or effective outreach to the public. Key ministries could not make effective policies
or deliver core services to the Iraqi people. To help the Government of Iraq improve public administration
and strengthen the capabilities of key ministries, by training and mentoring officials at selected ministries,
USAID awarded a $339.5 million contract to implement the National Capacity Development Program.

The audit was conducted to determine whether the program was succeeding in improving the broad
managerial capacity of selected key ministries. However, 2 years into the 3-year program—although the
program was achieving some of its planned results—there was insufficient evidence to measure whether the
overall goal of capacity building was being achieved.

At the time of the audit, some key program activities had not been carried out—for example, the program
had not been able to place advisers in two ministries, and the Ministry of Oil had not developed a capacity
building plan and remained unlikely to do so. OIG also observed that the response rate to post-training
surveys was so low that program officials could not ascertain whether Iraqi trainees had found their training
valuable in improving their ministry or unit. Moreover, security concerns have prevented program officials
from achieving results as rapidly as they had planned.

However, the audit did note progress in other areas. The program provided training to almost 3,000 Iraqi
civil servants, awarded scholarships for postgraduate study abroad, and established 3 regional training centers.
Despite the security challenges, the contractor used alternative communication methods to establish
working relationships with most ministries and institutions. Nevertheless, the program lacked data to show
that these and other activities were contributing to the overall goal of increasing the managerial capacity of
Iraqi ministries.

OIG recommended that USAID/Iraq include outcome indicators in the performance management plan
to measure whether key ministries have improved management and delivery of core services; direct the
contractor to work with the Ministry of Oil to draft a capacity development plan or an equivalent substitute;
implement a plan to increase the survey response rate to provide data to measure results; and add an
indicator to the performance management plan to determine how many graduate-level scholarships are
actually being used to send students for study abroad.

Management decisions have been reached on all recommendations.

(Audit Report No. E-267-09-001-P)




                                                          SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   13
      West Bank/Gaza
      OIG’s Oversight Activities Continue in the West Bank and Gaza. OIG’s oversight activities in the West
      Bank and Gaza included audits of USAID’s cash-transfer program to the Palestinian Authority and
      continuing audits of USAID’s contractors and grantees. USAID contracted with independent public
      accounting firms to conduct concurrent audits of cash transfers to the Palestinian Authority; financial
      audits; and examinations of contractors’, grantees’, subcontractors’, and subgrantees’ processes. These
      audits help ensure the validity of costs claimed and compliance with Executive Order 132247 regarding
      blocking assistance to terrorist organizations. During this period, OIG issued four final reports. The
      reports identified questioned costs of approximately $100,000 of the $9.8 million audited. In addition,
      the reports identified areas for improvement in internal controls and instances of noncompliance with
      agreements.

      OIG oversight activities during this period did not identify any instances in which terrorist organizations
      received USAID funds.




      7.   Executive Order No. 13224,“Blocking Property and Prohibiting Transactions With Persons Who Commit,Threaten to Commit,
           or Support Terrorism” (September 23, 2001).



14   USAID OFFICE OF INSPECTOR GENERAL
JUST AND DEMOCRATIC GOVERNMENT


Democracy
Chief of Party Removed From Project for Abuse of Position. A former high-ranking government official
in a Southeast Asian nation became the head of a USAID environmental project in that country. OIG
investigated allegations of abuse and confirmed that the chief of party had misused the position in several
ways. The subject had used an official U.S. Government vehicle for personal errands and directed staff to
conduct her personal business during business hours. The official had accepted a laptop computer from
a nongovernmental organization (NGO) that was created during her previous tenure in her country’s
government, and she had requested funding for this NGO in relation to her USAID project. The official was
removed from the project and subsequently terminated.

Former Employee of USAID Grantee Convicted of Embezzlement. An OIG investigation led to the
conviction of a former chief of staff for a USAID grantee that receives USAID funds to promote democracy
in Cuba. The former employee pleaded guilty in U.S. District Court to one count of theft from a program
receiving Federal funds. The subject had engaged in a 2-year scheme to defraud the grantee of USAID funds
by overcharging for equipment purchases, resulting in a net profit of nearly $580,000. The subject paid
$646,731 in restitution plus interest to the grantee, which forwarded the money to USAID.


Human Rights
Audit of USAID/Colombia’s Human Rights Program. Colombia’s internal armed conflict has pitted security
forces, paramilitaries, and guerrilla groups against one another for several decades. Although violence has
decreased since 2002 and the human rights situation has improved, attacks on civilians continue. Former
paramilitaries continue to operate under new names, using threats and violence to accomplish their
objectives. The USAID Human Rights Program in Colombia is the largest such USAID program in the world.
The main implementing partner was awarded a $38.8 million contract beginning in 2006 and running for up
to 5 years. As of October 31, 2008, approximately $14.9 million has been spent under the program.

As part of the FY 2009 audit plan, OIG audited USAID/Colombia’s Human Rights Program activities to
answer the following questions:

    • 	 Did USAID/Colombia’s Human Rights Program activities achieve planned results and what impact
        has the program made?
    • 	 Did USAID/Colombia’s reporting on its Human Rights Program provide stakeholders with complete
        and accurate information on the progress of the program and the results achieved?

USAID/Colombia and its implementing partner achieved planned results for one of the six main areas of the
program (strengthening the Ministry of Interior and Justice) and partially achieved planned results for five
(strengthening the Office of Human Rights in the National Police, strengthening the Early Warning System
(EWS), supporting development of the National Action Plan for human rights, assisting at-risk communities,
and strengthening civil society organizations). Of particular note was the increase in the number of regional
analysts in the Colombian Government’s EWS for human rights from 13 in 2006 to 22 in 2007.
USAID/Colombia also provided support for the design of an overall strategy for the human rights office
of the National Police. Another success was the draft National Action Plan on human rights, agreed to by
25 different entities within the Colombian Government. Input from civil society organizations will be
needed to advance the plan.




                                                         SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   15
      USAID/Colombia can strengthen the program by increasing the independence of the EWS; helping to restart
      work on the National Action Plan; reprogramming funds from a stalled contingency plan activity for at-risk
      communities; finalizing and implementing a performance monitoring plan; strengthening data reporting; and
      improving reporting under USAID’s Training Results and Information Network.

      The report included nine recommendations with management decisions being reached on all
      recommendations.

      (Audit Report No. 1-514-09-007-P)




16   USAID OFFICE OF INSPECTOR GENERAL
ECONOMIC GROWTH AND PROSPERITY


Fiscal Reform
Audit of USAID/Jordan’s Fiscal Reform Project. As part of its national agenda, the Government of Jordan
has sought to raise living standards by encouraging growth in private enterprises and by implementing
sound economic and fiscal policies. The agenda emphasized broadening the tax base to increase revenue
and establishing a results-oriented budget. To assist the Government of Jordan in its efforts to reform the
national fiscal and tax system, USAID/Jordan awarded a 3-year, $14 million contract in May 2006.The four
major components of the Fiscal Reform Project address reforms in tax policy, tax administration, and budget
management, as well as a campaign to inform the public of the new tax policies.

OIG’s audit determined that, midway through the 3-year term, the project had achieved planned results
in its tax policy and budget management activities but not in its tax administration and public awareness
activities. The Jordanian Government benefited from training in tax policy and budget management. Further,
the tax policy reform generated a series of analyses for decision makers, including a synthesis of all existing
tax legislation. For the first time, the government produced a results-oriented budgeting capacity. However,
the government has not yet implemented a new, comprehensive tax code, and until the tax legislation is
passed, the public awareness campaign will not be implemented.

The project achieved planned results for only 31 of 50 of its performance indicators. Those that did not
achieve planned results included promoting public awareness of new tax laws, automating portions of the
tax collection process, and building an internal audit capability.

In addition to the performance indicators, OIG identified the following issues: the performance monitoring
and evaluation plan needed updating, questioned costs identified from contractor’s invoices should be
reviewed, and management controls should be strengthened. OIG recommended that USAID/Jordan
direct the contractor to update the performance monitoring and evaluation plan to address changing
conditions and determine whether two separate questioned cost issues, totaling over $41,000, are allowable.
Because USAID/Jordan had already taken action to strengthen management controls, OIG did not make a
recommendation on that issue.

The report contained three recommendations. A management decision and final action have taken place on
one recommendation and are pending on the remaining two.

(Audit Report No. 6-278-09-003-P)

Audit of the USAID/Honduras Trade, Investment, and Competitiveness Program. Honduras signed the
Dominican Republic–Central America–United States Free Trade Agreement (DR-CAFTA) with six other
countries on August 5, 2004. Under DR-CAFTA, Honduras is required to undertake reforms to liberalize
markets and provide greater transparency in customs administration, protection of intellectual property
rights, investment, financial services, government procurement, and maintain basic rules and standards for
food safety and the protection of human, animal, and plant health.

The Foundation for Investment and Development of Exports (FIDE) implements the USAID-funded Trade,
Investment, and Competitiveness Policy (TIC) Program, a 4-year program ending in March 2009. USAID
obligations as of June 30, 2008, were $4.5 million, and expenditures were $3.7 million. The program’s
components include research and reporting within FIDE and direct support to the Honduran Government
in implementing DR-CAFTA. As part of its FY 2009 audit plan, OIG performed this audit to determine
whether FIDE had achieved the TIC program’s planned results and to assess the program’s impact on trade
and investment reforms in Honduras.


                                                          SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   17
      FIDE performed well in terms of conducting studies and analyses and presenting findings to interested
      parties. FIDE did not perform as well with respect to influencing the Honduran Government to make
      needed reforms to comply with DR-CAFTA requirements. USAID/Honduras officials and FIDE officials
      had markedly different understandings of FIDE’s role in the TIC program. Current USAID/Honduras
      officials were frustrated that FIDE has not devoted more attention and energy to trying to influence the
      Government of Honduras to undertake needed reforms, but FIDE officials thought that such pressure
      would be unproductive or perhaps even counterproductive. Additionally, performance measurement and
      reporting needed to be strengthened. The program reported too much on lower-level results than on
      achievement of higher-level priorities. Also, much of the reported data was too unreliable to be useful for
      drawing conclusions regarding the program’s performance.

      The report included eight recommendations for USAID/Honduras. Final action has been taken on one
      recommendation, and management decisions are pending for the other seven.

      (Audit Report No. 1-522-09-006-P)


      Economic Security
      USAID Contractor Indicted for Bank Fraud. An OIG investigation revealed that an employee of a USAID
      contractor had committed bank fraud by deliberately falsifying shipping documents to inflate the costs of
      USAID-funded transactions, valued at over $1 million. The contractor was an export supplier participating
      in the USAID Commodity Import Program in Cairo, which promotes private sector investment in Egypt.
      An Egyptian importer was buying polypropylene, which the enterprise used to produce sturdy fabric bags
      for transporting and storing products such as crushed stone, sand, cement, chemicals, or animal feed.
      The contractor employee delayed shipments and backdated shipping documents to take advantage of
      falling polypropylene prices without renegotiating the agreed-upon prices or passing the savings on to the
      importer. The scheme increased the supplier’s profit margin and the amount of the sales representative’s
      commissions. The contractor later pleaded guilty to felony false use of shipping documents.




18   USAID OFFICE OF INSPECTOR GENERAL
INVESTMENT IN PEOPLE

Health
Audits of Procurement and Distribution of Commodities for the President’s Emergency Plan for AIDS Relief
(PEPFAR) in Haiti and Mozambique. In his 2003 State of the Union address, President George W. Bush
made a 5-year, $15 billion commitment in the fight against HIV/AIDS, focusing $10 billion in 15 countries for
treatment, prevention, and care. On July 30, 2008, President Bush authorized appropriations for FY 2009–13
by signing into law the Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008.

Audits were conducted in Haiti and Mozambique to determine whether PEPFAR commodities were
procured, deployed, and warehoused and whether the programs’ efforts achieved important targets on the
number of individuals tested for HIV and the number of individuals on antiretroviral (ARV) therapy. On the
whole, USAID/Haiti and USAID/Mozambique procured, deployed, and warehoused the commodities to help
achieve intended results.

Haiti. Haiti is the Caribbean nation most affected by HIV/AIDS, with 3.8 percent of adults living with HIV.
Haiti received over $28 million in PEPFAR funds in FY 2004. Funding for the fight against HIV/AIDS has
increased progressively—$78.3 million of funding in FY 2007 and an allocation of $90.6 million for FY 2008.
USAID/Haiti’s efforts made a substantial impact by testing 310,900 individuals for HIV, exceeding the target
for FY 2007, and by helping 12,900 individuals to receive ARV therapy. ARV therapy allows those living with
HIV/AIDS to live longer, healthier lives.

However, USAID/Haiti needs to strengthen the program by:

    •	  Moving commodities requiring cold storage to a new, suitably equipped warehouse.
    •	  Ensuring that the new warehouse has all the proper fire safety features.
    •	  Reducing the amount of expired commodities.
    •	  Working to mitigate the effect of irregularities in the supply of electricity.
    •	  Improving the procurement of Oraquick test kits.
    •	  Finalizing and implementing a performance monitoring plan for the Partnership for Supply Chain
        Management.
    • 	 Formalizing arrangements for lending and donating commodities to the Global Fund.

The report included eight recommendations. Final action has been taken on three and management
decisions have been reached on the remaining five.

Mozambique. In FY 2007, USAID/Mozambique procured 46 percent of its planned procurement of
commodities reported in the 2007 country operational plan. The mission budgeted $11.7 million to
procure ARV drugs and HIV test kits, and it procured $5.4 million worth of these commodities.
PEPFAR-funded activities of the selected partners have made a positive impact on the communities
served. USAID/Mozambique’s annual progress report of September 2007 reported that, of the targeted
110,000 individuals, over 78,000 were receiving ARV therapy. Also, in settings other than prevention of
mother-to-child transmission of HIV, the mission reported that 422,000 individuals had received counseling
and testing for HIV.

Although the results in Mozambique are noteworthy, the mission needs to coordinate more closely with
USAID/Washington staff responsible for administering the centrally managed commodity management
contract to establish policies and procedures for identifying and disposing of expired drugs, improve




                                                         SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   19
      warehouse storage conditions, and coordinate donor efforts in procuring and distributing essential ARV
      drugs.

      The report recommended that USAID/Mozambique:

           • 	 Issue guidance that expired commodities should not be used.
           • 	 Collaborate with implementing partners to improve commodity storage conditions.
           • 	 Develop a monitoring and evaluation plan for commodity storage to ensure that commodities are
               stored in accordance with applicable guidelines.
           • 	 Provide a Portuguese translation of the storage guidelines and conduct inventory management
               training.
           • 	 Conduct periodic site visits to health centers and warehouses.
           • 	 Develop procedures for improved access to Mozambique’s Ministry of Health project sites.
           • 	 Develop procedures for validating partner data.
           • 	 Verify partner compliance with USAID branding requirements.

      The report included eight recommendations and management decisions have been reached on all.

      (Audit Report No. 1-521-09-001-P and Audit Report No. 4-656-09-001-P)

      Audit of USAID/Ukraine’s Displaced Children and Orphans Fund Activities. USAID’s Displaced Children and
      Orphans Fund provides financial support for programs that help families and communities improve the well­
      being of vulnerable children. In 2004, the Fund agreed to provide $3.2 million to support USAID/Ukraine’s
      Families for Children Program. The goal of the Families for Children Program is to develop sustainable
      and replicable services for children who otherwise would be institutionalized or living on the street. The
      program seeks to build a continuum of services in areas such as family preservation, domestic adoption, and
      foster care. As of FY 2007, the program’s funding level was approximately $3.2 million.

      OIG conducted an audit to determine whether USAID’s Displaced Children and Orphans Fund activities in
      Ukraine are achieving their goals and improving the well-being of vulnerable children and families.

      The audit determined that, from October 2006 through June 2008, USAID/Ukraine’s Families for Children
      Program completed most of the activities included in its work plans.These activities focused on four major
      areas: community mobilization and capacity building, institutional reform, national-level technical assistance,
      and a grant program. During FY 2007, the program successfully completed 29 of 32 planned activities;
      during the first three quarters of FY 2008, the program successfully completed 37 of 40 planned activities.

      Although the program completed most of the activities in the work plans, USAID/Ukraine had difficulty
      in assessing the program’s progress or overall impact because of changes in the program’s emphasis and
      weaknesses in monitoring and reporting. While Agency, bureau, and Federal guidance emphasize the need
      for missions to compare planned results with actual achievements, USAID/Ukraine did not collect and
      analyze such performance data for the program. Changes to the objectives were not discussed with the
      USAID responsible officer, and USAID/Ukraine did not develop new objectives against which program
      progress could be measured. As a result, USAID/Ukraine could not adequately assess the progress regarding
      targets and objectives, the achievement of planned results for each year, or the program’s overall impact.

      OIG recommended that USAID/Ukraine develop a comprehensive mission order on activity monitoring
      that requires the periodic evaluation of planned and actual progress toward the goals and objectives of
      grants and contracts.




20   USAID OFFICE OF INSPECTOR GENERAL
The report included one recommendation, and a management decision was reached on this
recommendation.

(Audit Report No. 9-000-09-002-P)

Audit of EngenderHealth’s Management of Activities Financed by USAID/Bolivia. Bolivia has one of the
region’s highest maternal mortality rates. To help the Bolivian Government improve maternal health
services, USAID/Bolivia entered into a 3-year Associate Award cooperative agreement with EngenderHealth
in September 2006 with an estimated cost of $6 million. The intent was to support implementation of
an integrated package of maternal health services and build the capacity of institutions to provide these
services effectively. The Associate Award cooperative agreement was managed by USAID/Bolivia. The
recipient also implemented a global health agreement managed by USAID/Washington, under which it has
received $3.7 million of additional funding for activities in Bolivia since 2003.

OIG conducted an audit at USAID/Bolivia’s request to determine whether the recipient managed
USAID-financed activities efficiently and followed sound procurement practices in accordance with Federal
regulations, agreement requirements, and its own policies and procedures.

The recipient did not in all cases manage USAID-financed activities efficiently or in accordance with applicable
requirements, policies, and procedures. The audit identified questioned costs in relation to unsupported
expenditures, cost share contributions, and staffing issues. Some of the questioned costs concerned, for
example, requests for payment without sufficient proof that the work had been performed; staff working only
35 hours a week, instead of the 40 hours specified in EngenderHealth’s own policies and procedures; and a
local employee who used office space as living quarters without reimbursing about $1,700 in unauthorized
costs to USAID. Also, employees hired for full-time work under the locally awarded cooperative agreement
performed work for the global agreement, meaning not only that salaries were billed to the local agreement
for global work but also that the employees devoted less time to their locally assigned work. While the
grantee did follow sound procurement practices for most procurements of goods and services, the recipient
did not use competitive procedures to hire consultants at a cost of more than $672,000 and violated conflict
of interest rules by giving a $4,000 job to the son of the project head and then not using the products
received from the consultant. Overall, these problems took time and money away from the activities, making
them less effective in attaining the project’s goals.

OIG made six recommendations for USAID/Bolivia to determine whether more than $940,000 in questioned
costs is allowable and two recommendations for USAID/Washington to determine whether over $500,000 in
questioned costs is allowable. OIG also recommended that USAID recover the unallowable amounts.

The report included eight recommendations. Management decisions have been reached on the six
recommendations directed to USAID/Bolivia and are pending on the two directed to USAID/Washington.

(Audit Report No. 1-511-09-004-P)




                                                           SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   21
      Education
      Audit of USAID/Sudan’s Education Activities. USAID/Sudan’s primary goal is to nurture the achievement of
      peace through the successful implementation of the 2005 Comprehensive Peace Agreement. The education
      portfolio contributes to this goal.

      OIG conducted an audit to determine whether selected USAID/Sudan’s education activities were achieving
      results for their key indicators for student enrollment and teacher training in USAID-sponsored education
      programs.

      OIG determined that two of USAID/Sudan’s eight education indicators had achieved their intended results.
      For the six remaining indicators, it was not possible to determine whether they had achieved results
      because the data reported for those indicators were not reliable. However, USAID/Sudan’s education
      program has made a positive impact on Sudan’s educational system. For example, administrators and
      officials as well as teachers and educators were trained, students were enrolled in USAID-supported
      schools, textbooks and other teaching materials were provided by USAID assistance, and laws, policies, and
      regulations were developed or modified.

      OIG recommended that USAID/Sudan develop and implement a plan to train implementing partners to
      record and report program results and maintain supporting documents. OIG further recommended that
      USAID/Sudan establish procedures to ensure that reported results from implementing partners meet
      USAID standards for validity, reliability, and timeliness.

      The report included six recommendations. Final action was taken on one and management decisions have
      been reached on the remaining five recommendations.

      (Audit Report No. 4-650-09-002-P)

      Audit of USAID/Tanzania’s Basic Education Program. Tanzania is one of the world’s poorest countries,
      with a substantial Muslim population. The potential encroachment of radical Islam in a country made
      vulnerable by economic hardship requires special attention to preserve Tanzania’s political stability and
      beneficial leadership in regional African affairs. This program’s goal has been to promote the interrelated
      objectives of prosperity, security, and stability in Tanzania as part of the U.S. outreach to Muslim and
      pastoralist communities to forge effective antiterrorism coalitions. The program sought to strengthen
      student performance in English, math, and sciences among underserved communities, with special emphasis
      on increasing educational opportunities for girls. This audit sought to determine whether USAID/Tanzania’s
      basic education program achieved its intended results and to ascertain whether it has improved educational
      opportunities and performance in underserved communities. As of September 30, 2008, the program had
      obligations totaling $5.8 million.

      The audit determined that USAID/Tanzania’s basic education program achieved one out of four intended
      results for fiscal years 2007 and 2008, as measured by the mission’s performance indicators. For the remaining
      three indicators, valid and reliable data were not available or indicator definitions were incorrectly applied.
      Consequently, the audit was not able to conclude whether intended results had been achieved for those three
      indicators. However, despite these data quality and reporting issues, the program did have some positive
      effects, including increased preschool education in Zanzibar; instruction in remote areas and more acceptance
      of early childhood education; teacher training; and science camp sponsorship. These achievements expanded
      educational opportunities for girls, particularly in Muslim communities. Some of the program initiatives, such
      as school management committees, have strengthened civil society by eliciting community input and support,
      and the program overall has helped lay a foundation for sustainable economic growth.




22   USAID OFFICE OF INSPECTOR GENERAL
The audit identified several areas for improvement in the effectiveness and administration of the program.
These areas included increasing the utilization of program activities, particularly the percentage of enrolled
students actually attending classes; determining whether the environmental education activity is consistent
with the core objectives of the basic education program; improving the quality of reported results; updating
the performance management plan and including outcome-oriented indicators; documenting the basis
for selecting performance targets; and ensuring that the provision regarding the prohibition on terrorist
financing is included in all subawards.

Management decisions were reached on seven recommendations and are pending on the remaining three.

(Audit Report No. 4-621-09-005-P)




                                                                             Exterior improvements
                                                                             made to a primary school in
                                                                             Mtwara in southern Tanzania.
                                                                             (Photo by RIG/Pretoria)




                                                          SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   23
      MANAGEMENT CAPABILITIES

      Financial Management
      Audit of USAID’s Financial Statements for FY 2008 and 2007. Pursuant to the Government Management
      Reform Act of 1994,8 USAID is required to submit audited financial statements to the Office of Management
      and Budget (OMB) annually. OIG conducted the audit to determine whether USAID’s principal financial
      statements fairly presented the assets, liabilities, net position, net costs, changes in net position, and
      budgetary resources for FY 2008 and 2007. OIG issued an unqualified opinion on USAID’s FY 2008 and
      2007 financial statements, reported one material weakness, and noted four significant deficiencies in internal
      controls.

      OIG reported a material weakness in that USAID did not reconcile its fund balance with the U.S.Treasury.
      Additionally, significant deficiencies were reported as follows: inadequate processes for reconciling loans
      receivable, ineffective controls for estimating and recording accounts payable and accrued expenses,
      inaccurate and incomplete recording of financial transactions in the general ledger, and unreconciled
      intragovernmental transactions.

      OIG recommended that USAID:

           • 	 Implement a process to perform and document monthly reconciliation of its fund balance with the
               Treasury.
           • 	 Implement procedures to reconcile loan receivable balances.
           • 	 Implement procedures to ensure that responsible officers review and validate the quarterly
               accounts payable and accrued expenses amounts before that information is recorded in the general
               ledger.
           • 	 Implement an overall plan to identify and correct errors in its accounting codes and maintain,
               update, and test these codes periodically.

      The report included four recommendations and management decisions have been reached on all
      recommendations.

      (Audit Report No. 0-000-09-001-C)

      OIG Identified $21 Million in Questioned Costs. OIG oversees and reviews work conducted by Federal
      and non-Federal auditors who perform audits of U.S.-based and foreign-based USAID contractors and
      grantees. During this period OIG reviewed 205 audit reports that identified $21 million in questioned
      costs, covering about $4.8 billion audited. OIG also issued 5 quality control review reports, covering about
      $100 million audited.

      For example, at USAID/Kenya, OIG reviewed an agency-contracted closeout audit of a project that was
      intended to ensure adequate rehabilitation and medical, psychological, and economic support to primary
      and secondary victims of the Nairobi bomb blast beyond the immediate crisis period. OIG recommended
      that USAID/Kenya recover, as appropriate, about $900,000 in questioned costs, and correct six internal
      control weaknesses and seven instances of material noncompliance. Management decisions are pending on
      all recommendations.




      8. Public Law 103–356.


24   USAID OFFICE OF INSPECTOR GENERAL
In Pakistan, OIG reviewed a recipient-contracted audit of an agreement that was intended to improve the
quality of education through teacher training, faculty development, and family literacy. OIG recommended
that USAID/Pakistan recover, as appropriate, over $750,000 in a combination of a cost-sharing shortfall and
questioned costs and correct six internal control issues and seven material instances of noncompliance.
Management decisions have been reached on all recommendations.

OIG Conducts Financial Management Training. USAID’s contracts and grants define the types of costs that
can be charged in support of various programs. To increase awareness and compliance with cost principles,
OIG conducts financial management training for overseas USAID staff, contractors, grantees, and others.
The training provides a general overview of both U.S. Government cost principles and audit requirements.
It also provides examples of concepts such as reasonableness of costs and allowable and unallowable costs.

During this period, OIG provided financial management training in 4 countries to about
350 individuals.


Management Accountability
Mission Director Suspended for Ethics Violations. An OIG investigation determined that a mission director
pressured subordinates to waive or greatly reduce charges for excessive weight in the shipment of effects
from another country. The director also used rank, as well as Government time and resources, to promote
a family member’s art business—specifically, directing a Government employee to set up a private social
event for the purpose of selling the family member’s artwork and using the mission’s e-mail to publicize the
event. The mission director was suspended for 45 days for ethics violations.

Mission Director Resigns Over Travel Irregularities. An investigation confirmed allegations that a mission
director had used a Government driver and vehicle for personal use and submitted multiple claims for
reimbursement for lodging not actually incurred. Upon receipt of USAID’s proposal for termination, the
mission director resigned.




                                                         SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   25
26   USAID OFFICE OF INSPECTOR GENERAL
SIGNIFICANT ACCOMPLISHMENTS—USADF
Audit of African Development Foundation’s Financial Statements for Fiscal Years 2008 and 2007. A
non-Federal audit firm under OIG oversight performed an audit of USADF’s financial statements for the
fiscal year ending September 30, 2008. The audit firm issued an unqualified opinion on USADF’s financial
statements. In addition, the audit firm found the following: No instances of material weakness in the
internal controls over financial reporting; a significant deficiency in USADF’s internal control in management
of grants; no instances of noncompliance with selected provisions of applicable laws and regulations; and
no instances of substantial noncompliance with Federal financial management systems requirements. OIG
oversight disclosed no instances in which the audit firm did not comply, in all material respects, with
applicable standards.

(Audit Report No. 0-ADF-09-002-C)




                                                          SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   27
28   USAID OFFICE OF INSPECTOR GENERAL
SIGNIFICANT ACCOMPLISHMENTS—IAF
Audit of Inter-American Foundation’s Financial Statements for Fiscal Years 2008 and 2007. A non-Federal
audit firm under OIG oversight performed an audit of IAF’s financial statements for the fiscal year ending
September 30, 2008. The audit firm issued an unqualified opinion on IAF’s financial statements. In addition,
the audit firm found the following: (1) No instances of material weaknesses in the internal control
over financial reporting; no instances of significant deficiency in IAF’s internal control; no instances of
noncompliance with selected provisions of applicable laws and regulations; and no instances of substantial
noncompliance with Federal financial management systems requirements. OIG oversight disclosed no
instances in which the audit firm did not comply, in all material respects, with applicable standards.

(Audit Report No. 0-IAF-09-003-C)




                                                         SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   29
30   USAID OFFICE OF INSPECTOR GENERAL
       APPENDIX I

REPORTING REQUIREMENTS

  USAID, USADF, AND IAF





             SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   31
32   USAID OFFICE OF INSPECTOR GENERAL
FINANCIAL AUDIT REPORTS ISSUED—USAID
October 1, 2008—March 31, 2009
                                                                                                             Amount of
   Report            Date of                                                                                  Findings       Type of
   Number            Report                                  Report Title                                     ($000s)        Findings
                                             PROGRAMS AND OPERATIONS
 0-000-09-001-C      11/14/08   Audit of USAID’s Financial Statements for Fiscal Years 2008 and 2007
                                          FOREIGN-BASED ORGANIZATIONS
 0-000-09-001-R      12/12/08   Audit of Tearfund for the Year Ended March 31, 2007                              18              QC
                                                                                                                 15              UN
 0-111-09-002-R      11/14/08   Audit of Mission Armenia NGO’s Support for Soup Kitchens Project,
                                Under Cooperative Agreement No. 111-A-00-04-00010-00 for the
                                Year Ended December 31, 2007
 0-118-09-003-R      01/16/09   Audit of Moscow Public Science Foundation’s Programs Under
                                USAID Cooperative Agreement No. 118-A-00-02-00135-00 for Fiscal
                                Year Ended December 31, 2007
 0-118-09-004-R      11/14/08   Audit of the Krasnodar Regional Nonprofit Organization—Southern
                                Regional Resource Center’s Programs Under USAID Cooperative
                                Agreement No. 118-A-00-04-0009 for the Year Ended
                                December 31, 2007
 0-118-09-005-R      02/24/09   Audit of Inter-regional Public Foundation “Siberian Civic Initiatives
                                Support Center” Programs under USAID Cooperative Agreement
                                No. 118-A-00-03-00127 and 118-A-00-04-00055/01 for Fiscal Year
                                Ended December 31, 2007
 0-121-09-006-R      03/31/09   Audit of the International Charitable Organization “Center for
                                Ukrainian Reform Education” (CURE) Under USAID Cooperative
                                Agreement No. 121-A-00-02-00002-00, for Fiscal Year Ended
                                December 31, 2007
 0-121-09-007-R      03/23/09   Audit of Municipal Development Institute Under USAID Cooperative
                                Agreement No. 121-A-00-05-00710 for Fiscal Year Ended
                                December 31, 2007
 0-118-09-008-R      03/20/09   Audit of Institute for Family Health Under USAID Cooperative
                                Agreement No. 118-A-00-06-00077-00 for Fiscal Year Ended
                                December 31, 2007
 0-118-09-009-R      03/17/09   Audit of Center for Fiscal Policy, Programs under USAID
                                Cooperative Agreement No. 118-A-00-03-00084 and Contract
                                No. 118-C-00-06-00048 for Fiscal Year Ended December 31, 2007
 0-118-09-010-R      03/31/09   Audit of the Institute for the Fund for Sustainable Development,
                                Program Under USAID Cooperative Agreement No. 118-A-00-06­
                                00060, for Fiscal Year Ended December 31, 2007
 0-118-09-011-R      03/19/09   Audit of the Foundation for Information Policy Development,
                                Programs under USAID Cooperative Agreement No. 118-A-00-04­
                                00061, for Fiscal Year Ended December 31, 2007
 0-118-09-013-R      03/31/09   Audit of Moscow Helsinki Group Under USAID Cooperative
                                Agreement No. 118-A-00-02-00183 for Fiscal Year Ended
                                December 31, 2007


       BU—Better Use of Funds       QC—Questioned Costs             UN—Unsupported Costs                Note: UN is part of QC


                                                           Appendix I



                                                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009    33
                                                                                                                  Amount of
         Report            Date of                                                                                 Findings       Type of
         Number            Report                                   Report Title                                   ($000s)        Findings
      0-118-09-014-R       03/31/09      Audit of Foundation for Independent Radio Broadcasting Under
                                         USAID Cooperative Agreement No. 118-A-00-04-00075 for Fiscal
                                         Year Ended December 31, 2007
      0-118-09-015-R       03/31/09      Audit of the Institute for the Economy in Transition, Program Under           1              QC
                                         USAID Cooperative Agreement No. 118-A-00-00-00130-00, for
                                         Fiscal Year Ended December 31, 2007
      0-118-09-016-R       03/31/09      Audit of Regional Society of Disabled People, Under USAID
                                         Cooperative Agreement No. 118-A-00-03-00085 for Fiscal Year
                                         Ended December 31, 2007
      1-526-09-001-R       10/06/08      Audit of Programs No. 526-A-00-01-00074-00, Civil Society and
                                         No. 526-A-00-01-00100-00, Health Decentralization and Community
                                         Participation, and 526-A-00-07-00052-00, Improving the Paraguayan
                                         Health Information System Managed by the Fundacion Comunitaria
                                         Centro de Informacion y Recursos Para El Desarrollo for the Year
                                         Ended December 31, 2007
      1-520-09-002-R       10/06/08      Audit of the Fund Accountability Statement of the Program to
                                         Strengthen Entrepreneurial Competitiveness, Cooperative Agreement
                                         No. 520-A-00-06-00103-00, Managed by the Asociacion Nacional del
                                         Cafe, for the Period From June 8, 2006 to December 31, 2007
      1-527-09-003-R       10/06/08      Financial Audit of the Projects Financed by the United States Agency
                                         for International Development (USAID) Administered by the PRISMA
                                         Benevolent Association and the PRISMA Benevolent Association
                                         Institutional Financial Statements, for the Year Ended
                                         December 31, 2007
      1-520-09-004-R       10/06/08      Audit of the Fund Accountability Statement of Cooperative
                                         Agreement No. 520-A-00-05-00084-00 “Sustainability Program,”
                                         Asociacion Pro-Bienestar de la Familia de Guatemala, for the Year
                                         Ended December 31, 2007
      1-598-09-005-R       10/15/08      Financial Statement Audit of the Projects LAG-A-00-02-00001-00
                                         “Promoting Human Rights Through Inclusion, Conflict Prevention
                                         and Democratization in Latin America,” EDG-A-00-02-00030-00
                                         “Psychological Support for Victims of Torture,” and
                                         CA-518-A-00-06-00053-00 “Technical Assistance to Ecuador’s
                                         Tribunal Supremo Electoral,” Managed by the Inter-American
                                         Institute of Human Rights, for the Year Ended December 31, 2006
      1-512-09-006-R       10/09/08      Audit of the USAID Agreement No. 512-A-00-03-00026-00 Alpha                 1,706            QC
                                         Grant Agreement, Managed by Instituto Internacional de Educacao de          1,692            UN
                                         Brasil for the Period From October 1, 2004 to September 30, 2006
      1-526-09-007-R       10/08/08      Close-Out Audit of Program No. 526-A-00-02-00073-00 Managed by
                                         Instituto de Estudios Comparados en Ciencias Penales y Sociales for
                                         the Nine Months Ended September 30, 2007




             BU—Better Use of Funds          QC—Questioned Costs            UN—Unsupported Costs             Note: UN is part of QC


                                                                  Appendix I



34   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                       Amount of
  Report            Date of                                                                             Findings       Type of
  Number            Report                                 Report Title                                 ($000s)        Findings
1-520-09-008-R      10/08/08   Closeout Audit of the Fund Accountability Statement of the Project
                               for Food Assistance for Families Affected by Hurricane Stan,
                               Agreement No. USAID/FFP-A-00-06-00042-00, Managed by the
                               Asociacion SHARE Guatemala, for the Period From April 17, 2006 to
                               December 31, 2007
1-596-09-009-R      12/19/08   Audit of the Fund Accountability Statement of the USAID
                               Cooperative Agreement No. 596-A-00-06-00092-00, Administered by
                               the Secretariat for Economic Integration of Central America (SIECA),
                               for the Period From June 1, 2006 to December 31, 2007
1-596-09-010-R      12/19/08   Audit of the Fund Accountability Statement of the USAID
                               Cooperative Agreement No. 596-A-00-06-00071-00, Administered by
                               the Secretariat for Economic Integration of Central America, for the
                               Period From May 23, 2006 to December 31, 2007
1-511-09-011-R      10/09/08   Audit of the Fund Accountability Statement for the Rural Roads
                               Project, Strategic Objective USAID Grant Agreement No. 511-0660,
                               Integral Development Program—ID, for the Year Ended
                               December 31, 2007
1-518-09-012-R      10/10/08   Audit of the Fund Accountability Statement of the Cooperative
                               Agreement Nos. 518-A-00-01-00010-00 “Program for
                               Community Strengthening Initiatives in Northern Ecuador,”
                               518-A-00-07-00067-00 “Municipal Integrated Development
                               Program—MIDP,” and 518-A-00-06-00077-00 “Program to Combat
                               Trafficking in Persons in Ecuador,” Managed by the International
                               Organization for Migration—IOM, for the Periods Between
                               January 1, 2007 to December 31, 2007
1-511-09-013-R      10/10/08   Financial Audit of Integral Health Coordination Program, USAID                4              QC
                               Cooperative Agreement No. 511-A-00-05-00113-00, NGO Paraguas:
                               Communitarian Health Project for the Year Ending on
                               December 31, 2007
1-519-09-014-R      10/10/08   Audit of the Fund Accountability Statement of the Project
                               “Strengthening Health Care and Basic Education” Cooperative
                               Agreement No. 519-A-00-06-00033-00 Between the United States
                               Agency for International Development (USAID), Mission in El
                               Salvador, and Fundacion Empresarial Para el Desarrollo Educativo, for
                               the Year Ended December 31, 2007
1-532-09-015-R      10/10/08   Closeout Audit of the Fund Accountability Statement of the                   85              QC
                               Caribbean Centre of Excellence for Teacher Training Project Under            27              UN
                               Cooperative Agreement No. EDG-A-00-02-00038-00, for the Period
                               August 1, 2005 to September 30, 2006
1-526-09-016-R      10/10/08   Closeout Audit of the Fund Accountability Statement of Cooperative
                               Agreement No. 526-A-00-04-00027-00 “Paraguay Good Governance
                               and Anti-Corruption Program,” Alter Vida Association, for the Year
                               Ended December 31, 2007




      BU—Better Use of Funds       QC—Questioned Costs            UN—Unsupported Costs            Note: UN is part of QC



                                                        Appendix I




                                                                 SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   35
                                                                                                                Amount of
         Report            Date of                                                                               Findings       Type of
         Number            Report                                   Report Title                                 ($000s)        Findings
      1-511-09-017-R       10/15/08      Independent Auditor’s Report for the Year Ended
                                         December 31, 2007; Rural Roads Project Strategic Objective for
                                         Alternative Development USAID Grant Agreement
                                         No. 511-0643
      1-522-09-018-R       10/23/08      Financial Audit of the Rural Water and Sanitation Program Under the
                                         Municipal Development Activity of the Reconstruction Program by
                                         the Hurricane, Implementation Letter No. 522-0410.03-193 and
                                         No. 522-0410.05-137,Administered by the Fondo Hondureno de
                                         Inversion Social Through the Major Infrastructure Division, for the
                                         Period From October 1, 2005 Through September 30, 2006 and
                                         From October 1, 2006 Through September 30, 2007
      1-527-09-019-R       10/16/08      Closing Audit of Grant Agreement No. 527-G-00-04-0080-00,
                                         “Acciones de Prevencion y Atencion de la Salud Mental y los
                                         Derechos Humanos en el Marco del Programa Integral de
                                         Reparaciones” Managed by Centro de Atencion Psicosocial for the
                                         Period From January 1, 2007 to March 31, 2008
      1-511-09-020-R       10/20/08      Audit of the Fund Accountability Statement of the Sustainable
                                         Technologies Promotion Center, Grant Agreement USAID
                                         No. 511-A-00-02-00282-00, for the Year Ended December 31, 2007
      1-538-09-021-R       10/20/08      Fund Accountability Statement Audit of Grant Agreement
                                         Nos. 538-009-01 and 538-010-01, Managed by the Caribbean
                                         Community Secretariat, for the Year Ended December 31, 2007
      1-527-09-022-R       10/20/08      Financial Statement Audit of Strategic Objective Agreement                 838             QC
                                         No. 527-0407, Managed by the National Institute of Natural                 814             UN
                                         Resources for the Period From January 1, 2006 to
                                         December 31, 2007
      1-518-09-023-R       10/20/08      Closeout Audit of the Fund Accountability Statement of the
                                         Program of Financial Sustainability and Strategic Alliances
                                         Agreement No. 518-A-00-98-0000187-00, and the Program to
                                         Strengthen Local Governments in Ecuador Agreement
                                         No. 518-A-00-98-00-04-00-00142-00, Managed by Fundacion
                                         Esquel—Ecuador, for the Periods Between January 1, 2007 to
                                         February 29, 2008
      1-522-09-024-R       10/22/08      Audit of the Fund Accountability Statement of the “Expanding Access
                                         to Family Planning for Marginalized Rural Populations” Program,
                                         Cooperative Agreement No. 522-0433-3-05005, Managed by the
                                         Asociacion Hondurena de Planificacion de Familia, for the Period
                                         From January1 to December 31, 2007
      1-517-09-025-R       10/22/08      Closeout Audit of the Reproductive Health Services Project
                                         No. 517-G-00-01-00115-00, Managed by the Asociacion Dominicana
                                         de Planificacion Familiar, Inc., for the Period January 1, 2003 to
                                         September 3, 2007




             BU—Better Use of Funds          QC—Questioned Costs           UN—Unsupported Costs            Note: UN is part of QC


                                                                  Appendix I



36   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                       Amount of
  Report            Date of                                                                             Findings       Type of
  Number            Report                                Report Title                                  ($000s)        Findings
1-522-09-026-R      10/23/08   Audit of the Fund Accountability Statement of USAID/Honduras                238              QC
                               Resources, Under the EDUCATODOS Program, Under Grant                        238              UN
                               Agreement No. 522-0436, Managed by the Secretariat of Education,
                               for the Period January 1 to December 31, 2007
1-523-09-027-R      10/22/08   Report on the Fund Accountability Statement for the Agreement
                               Between Fondo Mexican para la Conservacion de la Naturaleza,
                               A.C. and the United States Agency for International Development
                               (USAID) Corresponding to the Grupo Cuencas Environmental
                               Initiative Program (NEEM) for the Period March 1, 2007 to
                               December 31, 2007
1-527-09-028-R      10/23/08   Close-out Financial Audit of USAID Grant Agreement                         1,350             QC
                               No. 527-0391, Confronting the Threats of Emergent and                        8               UN
                               Re-Emergent Diseases “Project VIGIA,” Managed by the National
                               Institute of Health, for the Periods From January 1 to
                               December 31, 2007, and From January 1 to July 31, 2008
1-527-09-029-R      10/23/08   Close-out Financial Audit of USAID Grant Agreement                           35              QC
                               No. 527-0375,“Coverage with Quality” Project, Managed by the                 35              UN
                               Health Ministry, for the Period From January1 to December 31, 2007
1-522-09-030-R      10/29/08   Close-out Audit of the Fund Accountability Statement of USAID                1               QC
                               Under the Program No. 522-0433.00, Investing in People:“Health
                               Activity,” Managed by the National Autonomous Water and Sewerage
                               Service, for the Period June 1, 2006 to December 31, 2007
1-511-09-031-R      10/29/08   Independent Auditor’s Report of USAID Cooperative Agreement
                               No. 511-A-00-04-00298-00, Managed by Centro de Investigacion,
                               Educacion y Servicios, for the Period From January 1 to
                               December 31, 2007
1-518-09-032-R      10/20/08   Audit of the Fund Accountability Statement of the Program for                2               QC
                               Strengthening Democracy in Ecuador, Cooperative Agreement                    2               UN
                               No. 518-A-00-03-00054-00, Managed by the Citizen Participation
                               Corporation, for the Year Ended December 31, 2007
1-527-09-033-R      11/21/08   Close-out Financial Audit of USAID Grant Agreement                           2               QC
                               No. 527-0412,“Improve Health for High Risk Population” Project,
                               Managed by the Health Ministry, for the Period From January 1 to
                               November 30, 2007
1-517-09-034-R      11/21/08   Audit of USAID/DR Resources Managed by Asociacion Dominicana
                               Pro-Bienestar de la Familia, Inc. (PROFAMILIA) Under the Grant
                               Agreement for the Reproductive Health Services in the Dominican
                               Republic, USAID Grant Agreement No. 517-G-00-01-00114-00, for
                               the Period January 1, 2005 Through December 31, 2007
1-527-09-035-R      11/21/08   Close-out Audit of the Fund Accountability Statement of the Sub
                               Agreement Frame “Reinforcement of PDA” Program, Managed by
                               Proyecto Especial de Control y Reduccion de los Cultivos de Coca
                               en el Alto Huallaga, USAID Grant Agreement CDOE 527-0404, for
                               the Year Ended December 31, 2007



      BU—Better Use of Funds       QC—Questioned Costs           UN—Unsupported Costs             Note: UN is part of QC



                                                        Appendix I




                                                                SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   37
                                                                                                                 Amount of
         Report            Date of                                                                                Findings       Type of
         Number            Report                                   Report Title                                  ($000s)        Findings
      1-527-09-036-R       11/25/08      Financial Statement Audit of Strategic Objective Agreement                  18              QC
                                         No. 527-0404, Managed by the Comision Nacional Para el
                                         Desarrollo y Vida Sin Drogas for the Period From January 1 to
                                         December 31, 2007
      1-512-09-037-R       12/09/08      Audit of the USAID Agreement No. 512-A-00-01-00016-00                      1,025            QC
                                         Despertar Grant Agreement Managed by Bem-Estar Familiar no                  939             UN
                                         Brasil (BEMFAM) for the Period From October 1, 2001 to
                                         June 30, 2006
      1-517-09-038-R       12/11/08      Closeout Audit of the Fund Accountability Statement of the
                                         “Improving the Quality of Life for Vulnerable Children Living in the
                                         Streets of Santo Domingo (Project NINA),” Cooperative Agreement
                                         No. 517-A-00-04-00114-00, Managed by Catholic Relief Services/
                                         Dominican Republic, for the Period From September 1, 2004 to
                                         February 29, 2008
      1-598-09-039-R       12/17/08      Financial Statements Audit of the Projects LAG-A-00-02-00001-00
                                         “Promoting Human Rights Through Inclusion, Conflict Prevention
                                         and Democratization in Latin America,” EDG-A-00-02-0030-00
                                         “Psychological Support for Victims of Torture,” and Cooperative
                                         Agreement CA 518-A-00-06-00053-00 “Technical Assistance to
                                         Ecuador’s Tribunal Supremo Electoral” Managed by the Inter-
                                         American Institute of Human Rights, for the Year Ended
                                         December 31, 2007
      1-522-09-040-R       12/17/08      Audit of the Financial Statements of the Trust Fund Agreement of
                                         the Government of Honduras, Managed by USAID/Honduras, for
                                         the Period From October 1, 2005 to September 30, 2007
      1-520-09-041-R       12/17/08      Financial Audit of the “Quality Assurance and Small Business
                                         Development” Program,” USAID Cooperative Agreement
                                         No. 520-A-00-06-00105-00, Managed by Fundacion Apoyo a la
                                         Generacion de Ingresos Locales (Fundacion AGIL) for the Year Ending
                                         December 31, 2007
      1-520-09-042-R       01/06/09      Audit of the Fund Accountability Statement of USAID Resources
                                         “MYAP—Multiyear Assistance Program” Under PL-480 Title II,
                                         Cooperative Agreement No. FFP-A-00-07-00010-00, Managed by
                                         the Asociacion SHARE de Guatemala, During the Period From
                                         October 1, 2006 to September 30, 2007
      1-522-09-043-R       01/15/09      Audit of the Grant Agreement No. 522-0433 “Investing in People:             157             QC
                                         Healthier and Better Educated People,” Managed by the Unidad de             156             UN
                                         Extension de Cobertura y Financiamiento Under the Honduran
                                         Secretariat of Health for the Period From October 1, 2006 to
                                         December 31, 2007
      1-511-09-044-R       01/20/09      Fund Accountability Statement Audit of Asociacion de Proteccion             124             QC
                                         a la Salus (PROSALUD) Santa Cruz—Bolivia; Social marketing—                 124             UN
                                         Cooperative Agreement No. 511-A-00-02-00295-00 and Partners for
                                         Development—Cooperative Agreement No. 511-A-00-02-00261-00;
                                         Independent Audit Report for the Year Ended December 31, 2007


             BU—Better Use of Funds          QC—Questioned Costs           UN—Unsupported Costs             Note: UN is part of QC


                                                                  Appendix I



38   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                         Amount of
  Report            Date of                                                                               Findings       Type of
  Number            Report                                Report Title                                    ($000s)        Findings
1-521-09-045-R      02/04/09   Close-out Audit of the Fund Accountability Statement of USAID
                               Resources Managed by the Groupe Haitien d’Etude du Sarcome de
                               Kaposi et des Infections Opportunistes Centers Under Cooperative
                               Agreement No. 521-A-00-04-00010-00 for the Period From
                               March 15, 2004 to March 31, 2008
1-521-09-046-R      02/24/09   Financial Statements Audit of Funds Provided by the United States              99              QC

                               Agency for International Development, Mission in Haiti                         91              UN

                               (USAID/Haiti) for the Resources Managed by Fondation Haitienne
                               de l’Enseignement Prive (FONHEP) CA No. 521-A-00-99-00070-00
                               under the Education 2004 Project, For the Period of August 1, 2006
                               to September 30, 2007
1-527-09-047-R      03/06/09   Close-Out Audit on the Fund Accountability Statement of Grant
                               Agreement No. 527-G-00-99-00321-00 “Houses for Homeless
                               Children and Adolescents,” for the Period October 1, 2006 to
                               September 30, 2007 and Cooperative Agreement
                               No. 527-A-00-06-00017-00 “Sustainable Development Without Coca
                               in Peruvian Coca Growers Valleys,” for the Period January 1, 2007 to
                               February 29, 2008, Managed by Centro de Informacion y Educacion
                               Para la Prevencion del Abuso de Drogas (CEDRO)
1-518-09-048-R      03/09/09   Close-out Audit of Cooperative Agreement No. 518-A-00-06­
                               00046-00,“Promotion and Demand of Political and Labor Rights
                               for Handicapped People in Ecuador Program,” Managed by the
                               Federacion Nacional de Ecuatorianos con Discapacidad Fisica—
                               FENEDIF, for the Period January 1 to June 30, 2008
1-527-09-049-R      03/12/09   Close-Out Audit on the Consolidated Fund Accountability Statement             163              QC

                               for the Programs “Program Opportunities for Regional Economic                  70              UN

                               Development to Reduce Social Exclusion,” Under the Grant
                               Agreement FFP-A-00-02-00023-00 for the Period January 1 Through
                               December 31, 2007 and “Emergency Humanitarian Aid,” Under
                               the Grant Agreement 527-A-00-07-00062-00 for the Period
                               August 23 Through December 15, 2007, Financed by the
                               United States Agency for International Development and
                               Administered by CARITAS del Peru
1-522-09-050-R      03/13/09   Audit of the USAID Resources for the Program Strengthening the
                               Democratic Process in Honduras; Cooperative Agreement
                               No. 522-A-00-06-00302-00 Administered by the Federacion de
                               Organizaciones Para el Desarrollo de Honduras From
                               October 1, 2006 through December 31, 2007
4-615-09-001-N      10/15/08   Audit of USAID Resources for Orphans and Vulnerable Children                   4               QC

                               Scholarships Program Managed by PricewaterhouseCoopers (PwC)                   1               UN

                               under Contract No. 623-C-00-06-00007-00 for the period
                               December 6, 2005 to September 30, 2007
4-663-09-001-R      10/09/08   Audit of the Disaster Prevention and Preparedness Agency’s Strategic           44              QC

                               Objective Grant Agreement (SOAG) No. 663-011 for the period                     1              UN

                               July 01, 2002 to June 30, 2003



      BU—Better Use of Funds       QC—Questioned Costs           UN—Unsupported Costs               Note: UN is part of QC



                                                        Appendix I




                                                                SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   39
                                                                                                                  Amount of
         Report            Date of                                                                                 Findings       Type of
         Number            Report                                   Report Title                                   ($000s)        Findings
      4-611-09-002-N       10/15/08      Close-Out Audit of USAID Resources Managed by Zambia Chamber                 583             QC
                                         of Small and Medium Business Association (ZCSMBA) under                      527             UN
                                         Cooperative Agreements No. 690-A-00-01-00117-00 and
                                         690-A-00-03-00173-00 for the period July 1, 2001 to June 30, 2005
      4-617-09-003-N       10/30/08      Audit of USAID Resources Managed by Deloitte & Touche under                   9              QC
                                         Contract No. 617-C-00-07-00004-00 for the period May 8, 2007 to
                                         December 31, 2007
      4-656-09-004-N       12/11/08      Agency Contracted Closeout Audit of USAID Resources                          367             QC
                                         Managed by Etica Moçambique under Cooperative Agreement                      319             UN
                                         No. 656-A-00-04-00025-00 for the period June 8, 2004 to
                                         June 30, 2006
      4-663-09-004-R       10/09/08      Audit of USAID Resources Managed by the Amhara Regional                      13              QC
                                         Agricultural Research Institute (ARARI) under Strategic Objective
                                         Grant Agreement (SOAG) No. 663-007 for the Period July 8, 2003 to
                                         February 28, 2005
      4-650-09-005-N       12/11/08      Agency Contracted Audit of USAID Resources Managed by Express                83              QC
                                         Travel Group under Contract No. 623-C-00-04-00045-00 for the                 63              UN
                                         Period January 1, 2005 to December 31, 2007
      4-663-09-005-R       10/10/08      Audit of the Amhara National Regional State Bureau of Agriculture            27              QC
                                         and Rural Development (BOARD) under Strategic Objective Grant                21              UN
                                         Agreement (SOAG) No. 663-007 for the period July 08, 2003 to
                                         February 28, 2005
      4-615-09-006-N       12/12/08      Agency Contracted Closeout Audit of USAID Resources Managed                  914             QC
                                         by Adventist Development Relief Agency (ADRA) under Nairobi                  842             UN
                                         Bomb Survivors Follow-up Services Program Award
                                         No. 623-G-00-99-00044-00 for the period May 14, 1999 to
                                         September 30, 2002
      4-663-09-006-R       10/10/08      Audit of USAID Resources Managed by the Amhara National
                                         Regional State Bureau of Agriculture and Rural Development
                                         (BOARD) under Strategic Objective Grant Agreement (SOAG)
                                         No. 663-016 for the period June 30, 2005 to November 30, 2005
      4-615-09-007-N       12/18/08      Agency Contracted Audit of USAID Resources Managed by the                    47              QC
                                         Intermediate Technology Development Group (ITDG) under                       44              UN
                                         Cooperative Agreement No. 623-A-00-04-00018-00 for the period
                                         March 31, 2004 to July 31, 2007
      4-663-09-007-R       10/10/08      Audit of Amhara National Regional State Food Security Coordination           21              QC
                                         Program and Disaster Prevention Office (AFSCDPO) Under                       16              UN
                                         Strategic Objective Grant Agreement (SOAG) No. 663-016 for the
                                         year ended December 31, 2005
      4-615-09-008-N       01/14/09      Agency Contracted Closeout Audit of USAID Resources Managed                  322             QC
                                         By the K-Rep Development Agency (KDA) Under Cooperative                      291             UN
                                         Agreement No. 623-A-00-97-00039-00 for the Period May 1, 2001 to
                                         December 31, 2003




             BU—Better Use of Funds          QC—Questioned Costs           UN—Unsupported Costs              Note: UN is part of QC


                                                                  Appendix I



40   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                        Amount of
  Report            Date of                                                                              Findings       Type of
  Number            Report                                Report Title                                   ($000s)        Findings
4-663-09-008-R      10/30/08   Audit of USAID Resources Managed by the Ministry of Federal                   6               QC
                               Affairs Peace Building Activities under Limited Scope Grant
                               Agreement (LSGA) No. 663-03-03 for the period July 8, 2003 to
                               July 7, 2005
4-615-09-009-N      01/15/09   Agency Contracted Closeout Audit of USAID Resources Managed                  797              QC
                               by the Institute of Policy and Analysis Research (IPAR) under the            662              UN
                               Democracy and Governance Program, Cooperative Agreement
                               No. 623-A-00-00-00181-00 for the Period September 25, 2000 to
                               June 30, 2006
4-663-09-009-R      10/30/08   Audit of USAID Resources Managed by the Ministry of Federal
                               Affairs Peace Building Activities under Limited Scope Grant
                               Agreement (LSGA) No. 663-03-03 for the period July 8, 2005 to
                               July 7, 2006
4-615-09-010-N      01/21/09   Agency Contracted Audit of USAID Resources for Restructuring and
                               Reform Program Managed by the Directorate of Public Prosecutions
                               (DPP) under Development Assistance Grant Agreement
                               No. 615-006 for the period May 19, 2004 to June 30, 2007
4-623-09-010-R      11/26/08   Audit of USAID Resources Managed by the Common Market for                     87              QC
                               East and Southern Africa (COMESA) under Strategic Objective Grant             85              UN
                               Agreement (SOAG) Nos. 6231005.01-3-30001 and 6231006.01-3­
                               30002 for the year ended December 31, 2006
4-663-09-011-N      03/30/09   Agency Contracted Audits of USAID Resources Managed by Relief                 16              QC
                               Society of Tigray (REST) Under the Cooperative Agreement                      16              UN
                               Nos. 663-A-00-02-00366-00 and FFP-A-00-05-00028-00 and Agency
                               Contracted Closeout Audits of USAID Resources Managed by REST
                               Under the Cooperative Agreement No. 663-A-00-05-00406-00 and
                               Grant Agreement No. DFD-G-00-04-00162-00 for the Period
                               January 1, 2006 to December 31, 2007
4-674-09-011-R      11/28/08   Audit of USAID Resources Managed by the Mindset Network’s                     97              QC
                               Public Private Alliance in Education under Cooperative Agreement              97              UN
                               No. 674-A-00-04-00071-00 for the period August 27, 2004 to
                               December 31, 2005
4-663-09-012-R      12/11/08   Recipient Contracted Audit of USAID Resources Managed by the                  1               QC
                               Amhara National Regional State Food Security Coordination and
                               Disaster Prevention Office under Strategic Grant Agreement
                               (SOAG) No. 663-016 for the year ended December 31, 2006
4-621-09-013-R      12/11/08   Recipient Contracted Audit of USAID Resources Managed by
                               the Women in Law and Development in Africa (WiLDAF) under
                               Cooperative Agreement No. 621-A-00-06-00015-00 for the Period
                               October 1, 2006 to December 31, 2007
4-612-09-014-R      12/18/08   Closeout Audit of USAID Resources Managed by the National
                               Smallholder Farmers Association of Malawi (NASFAM) under
                               Cooperative Agreement No. 690-A-00-04-00087-00 for the period
                               October 1, 2006 to March 31, 2007



      BU—Better Use of Funds       QC—Questioned Costs           UN—Unsupported Costs              Note: UN is part of QC



                                                        Appendix I




                                                                SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   41
                                                                                                               Amount of
         Report            Date of                                                                              Findings       Type of
         Number            Report                                   Report Title                                ($000s)        Findings
      4-674-09-015-R       12/18/08      Recipient Contracted Audit of USAID Resources Managed by                  644             QC
                                         the National Health Laboratory Services (NHLS) under Grant                644             UN
                                         Agreement No. 674-0320-G-00-5053 for the period March 15, 2002
                                         to February 28, 2006
      4-674-09-016-R       01/09/09      Recipient Contracted Audit of USAID Resources Managed by                  461             QC
                                         The University of Kwa-Zulu Natal under Grant Agreement                     62             UN
                                         No. AOT-G-00-97-00375-00 and Cooperative Agreement
                                         No. HFM-A-00-02-00065-00 for the Period January 1, 2005 to
                                         December 31, 2006
      4-615-09-017-R       01/13/09      Audit of USAID Resources Managed by the Export Promotion                   4              QC
                                         Council (EPC) under Limited Scope Grant Agreement (LSGA)
                                         No. 615-007-LSGA-003 Implementation Letter No. 3 Amendment
                                         No. 2 for the period July 1, 2006 to September 30, 2007
      4-663-09-018-R       01/15/09      Audit of USAID Resources Managed by the Food Security                     16              QC
                                         Coordination Bureau (FSCB) Capacity Building for Productive Safety
                                         Net Program under Limited Scope Grant Agreement (LSGA)
                                         No. 663-04-01 for the period July 8, 2005 to July 7, 2006
      4-621-09-019-R       01/16/09      Audit of USID Resources Managed by the Ministry of Health and
                                         Social Welfare-Center for Educational Development in Health Arusha
                                         under the Strategic Objective Grant Agreement No. 621-0011.01,
                                         Implementation Letters No. 3 and 5 for the period July 1, 2006 to
                                         June 30, 2007
      4-615-09-020-R       01/28/09      Recipient Contracted Audit of USAID Resources Managed by the              853             QC
                                         Centre for Governance and Development (CGD) under Grant                   742             UN
                                         Nos. 623-G-00-99-00293-00, 623-G-00-01-00127-00, and
                                         623-A-00-04-00088-00 for the period September 17, 1999 to
                                         October 2, 2007
      4-623-09-021-R       01/29/09      Audit of USAID Resources Managed by the Common Market for                  2              QC
                                         Eastern and Southern Africa (COMESA) under Strategic Objective
                                         Grant Agreement (SOAG) Nos. 6231005.01-3-30001,
                                         6231006.01-3-30002 and 62300010.0260100-10 and Limited Scope
                                         Grant Agreement (LSGA) Nos. 623-1005.01-3-50079 and
                                         623-LSGA0010.02-3-60078 for the year ended December 31, 2007
      4-623-09-022-R       02/09/09      Closeout Recipient Contracted Audit of USAID Resources Managed            53              QC
                                         under Cooperative Agreement Number 623-A-00-02-00095-00 for
                                         the period January 1, 2007 to September 30, 2007 and Recipient
                                         Contracted Audit of USAID Resources Managed under Cooperative
                                         Agreement Number 623-A-00-06-00082-00 for the period October
                                         1, 2006 to December 31, 2007, both by Association for Strengthening
                                         Agricultural Research in Eastern and Central Africa (ASARECA)
      4-673-09-023-R       02/09/09      Audit of USAID Resources Managed by ORT Namibia Trust Under               18              QC
                                         Cooperative Agreement Number 690-A-00-05-00150-00, Helping
                                         Young People & Their Families Overcome the Impact of HIV/AIDS in
                                         Namibia—Skills, Opportunities, Self-reliance (SOS) Program for the
                                         Year Ended December 31, 2007


             BU—Better Use of Funds          QC—Questioned Costs           UN—Unsupported Costs           Note: UN is part of QC


                                                                  Appendix I



42   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                          Amount of
  Report            Date of                                                                                Findings       Type of
  Number            Report                                 Report Title                                    ($000s)        Findings
4-623-09-024-R      02/10/09   Closeout Audit of USAID Resources Managed by the Inter-                        307              QC
                               Governmental Authority on Development (IGAD) under Limited                     307              UN
                               Scope Grant Agreement (LSGA) No. 6231006.01-40002 and Audit
                               of USAID Resources Managed by the IGAD/Conflict Early Warning
                               and Response Mechanism (CEWARN) under LSGA
                               No. 6230009.02-03-600082 for the Periods January 1, 2007 to
                               September 30, 2007 and January 1, 2007 to December 31, 2007,
                               respectively
4-663-09-025-R      02/17/09   Audit of USAID Resources Managed by Hamlin Fistula Welfare and                  1               QC
                               Research Trust,Addis Ababa Fistula Hospital, (Fistula Hospital) USAID
                               Support for Fistula Identification, Referral and Treatment in Ethiopia,
                               under Grant Agreement No. 663-G-00-06-00418-00 for the period
                               from June 20, 2006 to June 30, 2007
4-623-09-026-R      02/19/09   Close-out Audit of USAID Resources Managed by the Centre for                    44              QC
                               African Family Studies (CAFS) under Cooperative Agreement                       44              UN
                               No. 623-A-00-02-00107-00, for the year ended December 31, 2007
4-674-09-027-R      02/20/09   Audit of USAID Agreements U62/CCU223540/ CFDA#93.941,                          208              QC
                               GHH-A-00-07-00019-00 and P1321A0027 with Mothers 2 Mothers                     201              UN
                               2 Be for the Year Ended December 31, 2007
4-663-09-028-R      02/20/09   Closeout Audit of USAID Resources Managed by the Ethiopian                      10              QC
                               Children’s Fund under Integrated Rural Development Center of                     8              UN
                               Children,Youth and Women, (Ethiopian Children’s Fund) under
                               Cooperative Agreement No. 663-A-00-02-00382 for the period
                               August 30, 2002 to January 31, 2007
4-615-09-029-R      02/20/09   Close-out Audit of USAID Resources Managed by Kenya Medical                    107              QC
                               Supplies Agency (KEMSA) under Development Assistance Grant                      24              UN
                               Agreement (DAGA) No. 615-003, Implementation Letter No. 3 for
                               the period April 21, 2004 to April 21, 2007
4-615-09-030-R      02/25/09   Close-out Audit of USAID Resources Managed by Transparency                     296              QC
                               International Kenya Anti-Corruption Advocacy Program under Grant               296              UN
                               Agreement No. 615-GR615-0266-G-00-00-00105 for the Period
                               September 29, 2000 to May 31, 2004
4-615-09-031-R      03/02/09   Close-out Audit of USAID Resources Managed by Transparency                      4               QC
                               International Kenya National Policy Advocacy/Monitoring Program
                               under Grant Agreement No. 615-GR623-A-00-04-00087 for the
                               Period October 3, 2004 to October 2, 2007
4-621-09-032-R      03/04/09   Audit of USAID Resources Managed by the Ministry of Health and
                               Social Welfare—Kigoma Zonal Training Centre under the Strategic
                               Objectives Grant Agreement Nos. 621-001-01 and 621-0011-01,
                               Implementation Letters Nos. 77, 7 and 4 for the period July 1, 2005
                               to June 30, 2007
4-621-09-033-R      03/06/09   Audit of USAID Resources Managed by Selian AIDS Control
                               Programme under Agreement No. 621-A-00-07-00001-00 for the
                               Period October 10, 2006 to December 31, 2007



      BU—Better Use of Funds       QC—Questioned Costs             UN—Unsupported Costs              Note: UN is part of QC



                                                         Appendix I




                                                                  SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   43
                                                                                                                  Amount of
         Report            Date of                                                                                 Findings       Type of
         Number            Report                                    Report Title                                  ($000s)        Findings
      4-663-08-034-R       10/09/08      Audit of the Ethiopian Orthodox Church Development and Inter-                 2              QC
                                         Church Aid Commission (EOC/DICAC) under the USAID Food                        1              UN
                                         Security Program (FSP) PL 480 Title II Development Activity Proposal,
                                         Cooperative Agreement No. FSP-A-00-98-00032-05, for the year
                                         ended December 31, 2003
      4-000-09-034-R       03/10/09      Audit of USAID Resources Managed by Genesis Trust under the                  63              QC
                                         Cooperative Agreement No. GHH-A-00-07-00014-00 for the year                  63              UN
                                         ended December 31, 2007
      4-663-08-035-R       10/09/08      Closeout Audit of the Ethiopian Orthodox Church Development                  60              QC
                                         and Inter-Church Aid Commission (EOC/DICAC) under the USAID
                                         Food Security (FSP) Program PL 480 Title II Development Activity
                                         Proposal, Cooperative Agreement No. FSP-A-00-98-00032-05, for the
                                         year ended December 31, 2004
      4-617-09-035-R       03/10/09      Audit of USAID Resources Managed by Inter-Religious Council
                                         of Uganda (IRCU) under Contract Nos. CRTA-06-10, UPHOLD
                                         102-2005, UGA/087/IRCU/001 and 617-C-00-06-00292-00 and IRCU
                                         060101 BB For the Year Ended December 31, 2007
      5-492-09-001-R       10/06/08      Financial Audit of the Program titled “Linking Initiatives and
                                         Networking to Control Tuberculosis,” USAID/Philippines
                                         Cooperative Agreement No. 492-A-00-06-00032-00, Managed by the
                                         Philippine Business for Social Progress (PBSP), for the Period from
                                         October 1, 2006, to September 30, 2007
      5-492-09-002-R       10/29/08      Closeout Audit of the Program Titled “Provision of Flood Early
                                         Warning to Flood Vulnerable Communities in the Lower Mekong
                                         River Basin,” USAID/Philippines Cooperative Agreement
                                         No. 492-A-00-03-00003-00, Managed by The Mekong River
                                         Commission (MRC), for the Period from January 1, 2006 to
                                         April 30, 2008
      5-493-09-003-R       10/30/08      Financial Audit of the Accelerating Economic Recovery in Asia                25              QC
                                         (AERA) Program, Managed by Kenan Foundation Asia (Kenan), USAID
                                         Cooperative Agreement No. 442-A-00-99-00072-00, for the Year
                                         Ended September 30, 2007
      5-367-09-004-R       10/30/08      Closeout Financial Audit of Improving the Policy Environment for              1              QC
                                         Agricultural Trade, Production and Marketing in Nepal, USAID/Nepal
                                         Cooperative Agreement No. 367-A-00-04-00021-00, Managed
                                         by Agro Enterprises Centre/Federation of Nepalese Chamber
                                         of Commerce and Industry (AEC/FNCCI), for the Period from
                                         November 25, 2003, to December 31, 2007
      5-442-09-005-R       11/25/08      Financial Audit of USAID Funds Managed by the Khmer HIV/AIDS
                                         NGO Alliance (KHANA), for the Year Ended December 31, 2007
      5-391-09-006-R       12/15/08      Financial Audit of the Interactive Teaching and Learning Program             763             QC
                                         in Pakistan, USAID/Pakistan Cooperative Agreement                            351             UN
                                         No. 391-A-00-06-01075-00, Managed by the Children’s Resources
                                         International Pakistan (G) Limited (CRI Pakistan), for the Period from
                                         March 1, 2006, to June 30, 2007


             BU—Better Use of Funds          QC—Questioned Costs            UN—Unsupported Costs             Note: UN is part of QC


                                                                   Appendix I



44   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                         Amount of
  Report            Date of                                                                               Findings       Type of
  Number            Report                                 Report Title                                   ($000s)        Findings
6-263-09-001-N      10/27/08   Financial Audit of the Statement of Inflows and Releases of the
                               Government of Egypt Special Accounts, for the Period July 1, 2004, to
                               June 30, 2005
6-263-09-001-R      11/10/08   Financial Audit of USAID Resources Managed by the Egyptian                     1               QC
                               Foundation for Enterprise Development (LEAD), Cooperative
                               Agreement No. 263-A-00-03-00049-00, Fund Accountability
                               Statement, for the Year Ended December 31, 2006
6-263-09-002-R      11/23/08   Financial Audit of the National Law Commission, Financial Sector               2               QC
                               Modernization Program, Competitive Environment for Investment,
                               Under USAID Agreement Number 263-0289-02, Implementation
                               Letter No. 3, for the Period From September 1, 2006, to
                               September 30, 2007
6-263-09-003-R      11/24/08   Financial Audit of the Egyptian Banking Institute, Cooperative                 1               QC
                               Agreement No. 263-A-00-05-00018-00, High Level Training for
                               Egyptian Bankers and Central Bank of Egypt Staff, for the Period
                               September 1, 2005, through December 31, 2006
6-263-09-004-R      11/26/08   Financial Audit of the Ministry of Foreign Trade and Industry, Industry        1               QC
                               and Trade Advisory Support Unit, Implementation Letter No. 5,
                               Agreement No. 263-0284, for the Period January 1, 2007,Through
                               December 31, 2007
6-294-09-005-N      03/30/09   Audit of the Fund Accountability Statement of USAID Resources                  1               QC
                               Managed by Catholic Relief Services, Under Cooperative Agreement
                               Number 294-A-00-04-00217-00,“Palestinian Infrastructure for
                               Needed Employment,” for the Period From October 1, 2005, to
                               September 26, 2006
6-263-09-005-R      01/27/09   Financial Audit of USAID Resources Managed and Expenditures
                               Incurred by Financial Sector Modernization Program, Financial
                               Services Project, Mortgage Finance Authority Experts, USAID/Egypt
                               Grant Agreement No. 263-0289.01, Implementation Letter No. Four,
                               for the Period From September 1, 2005, to December 31, 2006
6-263-09-006-N      03/31/09   Financial Audit of the Government of Egypt Dollar Separate
                               Accounts, Under USAID Sector Policy Reform Program, for the
                               Period From July 1, 2004, through June 30, 2005
6-263-09-006-R      01/27/09   Financial Audit of USAID Resources Managed and Expenditures
                               Incurred by Customs Reform Unit, USAID/Egypt Grant Agreement
                               Number 263-0284, Implementation Letter No.Three, for the Period
                               From July 1, 2007, to June 30, 2008
6-263-09-007-N      03/31/09   Financial Audit of the Government of Egypt Dollar Separate
                               Accounts, Under USAID Sector Policy Reform Program, for the
                               Period From July 1, 2005, through June 30, 2006
6-263-09-007-R      01/27/09   Financial Audit of USAID Resources Managed by the Egyptian
                               Foundation for Enterprise Development, Cooperative Agreement No.
                               263-A-00-03-00049-00, for the Period From January 1, 2007,Through
                               December 31, 2007



      BU—Better Use of Funds       QC—Questioned Costs             UN—Unsupported Costs             Note: UN is part of QC



                                                         Appendix I




                                                                  SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   45
                                                                                                                Amount of
         Report            Date of                                                                               Findings       Type of
         Number            Report                                   Report Title                                 ($000s)        Findings
      6-263-09-008-R       01/28/09      Financial Audit of the Statement of Revenues and Expenses for the           2              QC
                                         Small and Emerging Business Enterprise Project, Under Project Grant
                                         No. 263-0228, Cooperative Agreement No. 263-A-00-03-00020, for
                                         the Period From January 1, 2005,Through December 31, 2005
      6-263-09-009-R       01/28/09      Financial Audit of USAID Resources to Credit Guarantee Company,
                                         Small and Emerging Business Development Program, Financing
                                         Agreement No. 263-0228 and Cooperative Agreement
                                         No. 263-A-00-03-00020, for the Period From January 1, 2006,
                                         Through December 31, 2007
      6-278-09-010-R       03/30/09      Audit of the Fund Accountability Statement of USAID Resources
                                         Managed by Business Development Center Under Cooperative
                                         Agreement Number 278-A-00-06-00311-00,“TATWEER” Program,
                                         for the Period From December 1, 2007, to November 30, 2008
      7-685-09-001-R       01/30/09      Audit of USAID and KFW Resources Managed by the Agency for the
                                         Development of Social Marketing (ADEMAS) under the Cooperative
                                         Agreement No. 685-A-00-03-00118-00 in Senegal for the Period
                                         January 1, 2005 to December 31, 2007 and the KFW Program
                                         No. 2002 65 033 for the Period January 1, 2007 to
                                         December 31, 2007
      7-624-09-002-R       02/27/09      Consolidated Audit of USAID and Other Donor Resources Granted              108             QC
                                         to the Permanent Interstate Committee for Drought Control in the            46             UN
                                         Sahel for the Period January 1, 2007 to December 31, 2007
      7-624-09-003-R       03/25/09      Audit of USAID Resources Granted to the West and Central                    5              QC
                                         African Council for Agriculture Research and Development (CORAF/
                                         WECARD) for the Period February 1, 2007 to
                                         December 31, 2007
      7-688-09-004-R       03/31/09      Audit of the Expenditures Made by the Administrative and Finance           50              QC
                                         Directorate of the Ministry of Agriculture under the USAID                 50              UN
                                         Accelerated Economic Growth Program No. 688-009 in Mali for the
                                         Period From January 1, 2004 through December 31, 2006
                                                    LOCAL CURRENCY TRUST FUND
      5-492-09-001-N       11/07/08      Financial Audit of USAID/Philippines’ Peso Trust Fund for Operating
                                         Expenses, for the Period from January 1, 2007 to December 31, 2007
                                                       U.S.-BASED CONTRACTORS
      0-000-09-001-D       01/07/09      Report on Audit of Associates in Rural Development Fiscal Year 2005
                                         Incurred Costs
      0-000-09-002-D       01/12/09      Associates in Rural Development, Report on Audit of Fiscal Year            504             QC
                                         2006 Incurred Costs
      0-000-09-003-D       01/09/09      Mendez England and Associates, Supplement to Report on Audit of             2              QC
                                         Fiscal Year 2000 Incurred Costs                                             2              UN
      0-000-09-004-D       01/09/09      Mendez England and Associates, Supplemental Report on Audit of             74              QC
                                         Fiscal Year 1997 Incurred Costs
      0-000-09-005-D       01/09/09      Mendez England and Associates, Supplement to Report on Audit of             2              QC
                                         Fiscal Year 2001 Incurred Costs

             BU—Better Use of Funds          QC—Questioned Costs           UN—Unsupported Costs            Note: UN is part of QC


                                                                  Appendix I



46   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                           Amount of
  Report            Date of                                                                                 Findings       Type of
  Number            Report                                 Report Title                                     ($000s)        Findings
0-000-09-006-D      01/16/09   Abt Associates, Inc. (ABT), Report on Adequacy and Compliance of
                               ABT Disclosure Statement Revision No. 7, dated April 2, 2005
0-000-09-008-D      01/16/09   Abt Associates, Inc. (ABT), Report on Adequacy and Compliance of
                               ABT Disclosure Statement Revision No. 6, dated April 1, 2001
0-000-09-009-D      01/23/09   Datex, Inc. Report on Audit of Fiscal Year 1999 Incurred Costs
0-000-09-010-D      01/23/09   Datex, Inc. Report on Audit of Fiscal Year 2000 Incurred Costs
0-000-09-011-D      01/23/09   Datex, Inc. Report on Audit of Fiscal Year 2001 Incurred Costs
0-000-09-012-D      01/30/09   Management Sciences for Development, Inc., Supplement to Report                 905              QC
                               on Audit of Fiscal Year 2001 Incurred Costs
0-000-09-013-D      01/30/09   Management Sciences for Development, Inc., Supplement to Report                  93              QC
                               on Audit of Fiscal Year 2002 Incurred Costs
0-000-09-014-D      02/11/09   Deloitte Touche Tohmatsu Emerging Markets Group, Ltd.,
                               Supplemental Report on Incurred Costs for Fiscal Year 1999
0-000-09-015-D      02/06/09   Deloitte Touche Tohmatsu Emerging Markets Group, Ltd.,
                               Supplemental Report on Incurred Costs for Fiscal Year 2001
0-000-09-016-D      02/11/09   The Service Group, Inc., Report on Audit of Incurred Costs for                  175              QC
                               Fiscal Year 2002
0-000-09-017-D      02/11/09   The Service Group, Inc., Report on Audit of Incurred Costs for                   48              QC
                               Fiscal Year 2003
0-000-09-018-D      02/18/09   Bechtel National, Inc., Report on Audit of Incurred Costs for                   361              QC
                               Fiscal Year 2004
0-000-09-019-D      02/19/09   Deloitte Touche Tohmatsu Emerging Markets Group, Ltd. (DTTEMG),                  5               QC
                               Supplemental Report on Audit of Incurred Cost for Fiscal Year 2000               5               UN
0-000-09-020-D      02/20/09   Abt Associates, Inc., Report on Audit of Incurred Costs for                     353              QC
                               Fiscal Year 2004
0-000-09-022-D      03/04/09   TCG International, LLC (TCGI), Report on Audit of Incurred Costs
                               for Fiscal Years 2000, 2001, and 2002
0-000-09-023-D      03/04/09   Bechtel Group, Inc. and Bechtel Systems and Infrastructure, Inc.,
                               Report on Audit of Incurred Costs for Fiscal Year 2004
0-000-09-024-D      03/05/09   Creative Associates International, Inc., Report on Audit of Incurred             5               QC
                               Costs for Fiscal Year 2004
0-000-09-025-D      03/17/09   Advanced Engineering Associates International,Audit of
                               Fiscal Years 2004 and 2005 Incurred Costs
0-000-09-026-D      03/12/09   CDM Constructors, Inc., Report on Adequacy of Initial Disclosure
                               Statement Effective November 25, 2003
0-000-09-027-D      03/13/09   CDM Constructors, Inc., Report on Adequacy of Disclosure
                               Statement Revision No. 1
0-000-09-028-D      03/20/09   Bankworld, Inc. Supplement to Report on Audit of Fiscal Year 2004
                               Incurred Costs




      BU—Better Use of Funds       QC—Questioned Costs            UN—Unsupported Costs                Note: UN is part of QC



                                                         Appendix I




                                                                  SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   47
                                                                                                                     Amount of
         Report            Date of                                                                                    Findings       Type of
         Number            Report                                     Report Title                                    ($000s)        Findings
      6-294-09-003-N       02/12/09      Audit of the Cost Representation Statement of USAID Resources                   84              QC
                                         Managed by Associates in Rural Development, Under Contract
                                         Number 294-C-00-02-00211-00,“Emergency Services Delivery
                                         Through NGOs,” for the Period From October 1, 2004, to
                                         February 9, 2006
      6-294-09-008-N       03/31/09      Examination of American Intercontinental Constructors’ Compliance
                                         with Terms and Conditions of USAID-Funded Contract
                                         No. 294-C-00-04-00216-00,“Eastern Hebron Bulk Water Supply
                                         Project,” for the Period From January 1, 2006, to December 31, 2006
      E-267-09-004-D       11/14/08      Audit of Costs Incurred and Billed by Management Systems                        363             QC
                                         International (MSI) under USAID Contract No. DFD-I-01-05-00221­                 309             UN
                                         00 for the Period July 27, 2006, through September 30, 2007
      E-267-09-005-D       11/14/08      Audit of Costs Incurred and Billed by The Services Group, Inc.                   4              QC
                                         under Contract No. 267-C-00-04-00435-00 for the Period of
                                         October 1, 2006 through September 30, 2007
      E-267-09-006-D       01/27/09      Audit of the Costs Incurred and Billed by Development Alternatives,             199             QC
                                         Inc. (DAI) under USAID Contract No. RAN-C-00-04-00002-00 for                     36             UN
                                         the Period July 1, 2006 through
                                         December 31, 2006
      E-267-09-008-D       03/08/09      Audit of Costs Incurred and Billed by Louis Berger Group, Inc.                  41              QC
                                         (LBGI) under Contract No. 267-C-00-07-00500-00 for the period
                                         from May 14, 2007 to May 13, 2008
                                                           U.S.-BASED GRANTEES

      0-000-09-001-E       02/10/09      Report on Audit of the Polish American Enterprise Fund for the
                                         Fiscal Years Ended September 30, 2007 and September 30, 2006
      0-000-09-001-T       01/28/09      Review of Audit Reports of World Learning, Inc. for Fiscal Years
                                         Ending June 30, 2005, June 30, 2006 and June 30, 2007
      0-000-09-002-E       02/05/09      Report on Audit of the Czech and Slovak American Enterprise
                                         Fund for the Fiscal Years Ended September 30, 2007 and
                                         September 30, 2006
      0-000-09-002-T       02/03/09      Review of Audit Reports of Management Sciences for Health for
                                         Fiscal Years Ending June 30, 2004, June 30, 2005, June 30, 2006, and
                                         June 30, 2007
      0-000-09-003-E       02/10/09      Report on Audit of the U.S. Russia Investment Fund for the Fiscal
                                         Years Ended September 30, 2007 and September 30, 2006
      0-000-09-003-T       02/12/09      Review of Audit Reports of Catholic Relief Services for Fiscal
                                         Years Ending September 30, 2005, September 30, 2006, and
                                         September 30, 2007
      0-000-09-004-E       02/10/09      Report on Audit of the Bulgarian American Enterprise Fund for the
                                         Fiscal Years Ended September 30, 2007 and September 30, 2006
      0-000-09-004-T       02/12/09      Review of Audit Reports of CHF International, Related Entities and              64              QC
                                         Combined Entity for Fiscal Years Ending September 30, 2006 and                  34              UN
                                         September 30, 2007



             BU—Better Use of Funds          QC—Questioned Costs             UN—Unsupported Costs               Note: UN is part of QC


                                                                   Appendix I



48   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                         Amount of
  Report            Date of                                                                               Findings       Type of
  Number            Report                                 Report Title                                   ($000s)        Findings
0-000-09-005-E      02/10/09   Report on Audit of the Baltic-American Enterprise Fund for the
                               Fiscal Years Ended September 30, 2004 and September 30, 2003
0-000-09-006-E      02/10/09   Report on Audit of the Baltic-American Enterprise Fund for the
                               Fiscal Years Ended September 30, 2005 and September 30, 2004
0-000-09-007-D      01/22/09   Population Service International (PSI) Report on Review of Incurred           713              QC
                               Direct Costs for the period September 29, 2005 under Cooperative               1               UN
                               Agreement No. 623-A-00-05-00346-00
0-000-09-007-E      02/10/09   Report on Audit of the Baltic American Enterprise Fund for the Fiscal
                               Years Ended September 30, 2007 and September 30, 2006
0-000-09-008-E      02/12/09   Report on Audit of the Romanian American Enterprise Fund for the
                               Fiscal Years Ended September 30, 2007 and
                               September 30, 2006
0-000-09-009-E      02/12/09   Report on Audit of the Albanian-American Enterprise Fund for the
                               Fiscal Years Ended September 30, 2007 and September 30, 2006
0-000-09-010-E      02/12/09   Report on Audit of the Baltic-American Enterprise Fund for the
                               Fiscal Years Ended September 30, 2006 and September 30, 2005
0-000-09-011-E      02/12/09   Report on Audit of the Hungarian American Enterprise Fund for the
                               Fiscal Year Ended September 30, 2007
0-000-09-021-D      02/26/09   The American Council on Education, Report on Audit of Incurred
                               Costs for Fiscal Year 2006
6-294-09-002-N      11/18/08   Close-Out Audit of the Fund Accountability Statement of USAID                  17              QC
                               Resources Managed by National Democratic Institute Under
                               Award No. 294-A-00-05-00203-00,West Bank & Gaza International
                               Observation of Palestinian Presidential and Local Elections Program,
                               for the Period From December 10, 2004, to June 30, 2006
6-263-09-004-N      02/19/09   Financial Audit of Locally Incurred Costs, by CARE International               11              QC
                               Egypt Office, for the New School Program, Under Cooperative
                               Agreement No. 263-A-00-00-00009-00, For the Calendar years 2005
                               and 2006
E-267-09-001-D      11/14/08   Audit of the Costs Incurred and Billed by International Relief and             61              QC
                               Development, Inc. (IRD) under USAID Cooperative Agreement                      31              UN
                               No. 267-A-00-06-00503-00 for the Period May 29, 2006, through
                               September 30, 2007
E-267-09-003-D      11/14/08   Audit of Costs Incurred and Billed by International Relief &                  110              QC
                               Development, Inc. under Cooperative Agreement No.AFP-A-00-03­                  4               UN
                               00002-00 from November 1, 2005 through March 31, 2007
E-267-09-007-D      01/28/09   Audit of Costs Incurred and Billed by Save the Children Federation,            50              QC
                               Inc. under Cooperative Agreement No.AFP-A-00-03-00005-00 for                   38              UN
                               the Period from August 1, 2004 to April 1, 2006




      BU—Better Use of Funds       QC—Questioned Costs            UN—Unsupported Costs              Note: UN is part of QC



                                                         Appendix I




                                                                 SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   49
     FINANCIAL AUDIT REPORTS
                      REPORTS ISSUED—USADF
     October 1, 2008—Mar
                2008—March
                        ch 31, 2009
                                                                                                               Amount of
           Report          Date of                                                                              Findings          Type of
           Number          Report                                  Report Title                                 ($000s)           Findings
                                                      PROGRAMS AND OPERATIONS
     0-ADF-09-002-C        11/17/08      Audit of the U.S.African Development Foundation’s Financial
                                         Statements for Fiscal Years 2008 and 2007




     IAF
                                                                                                               Amount of
           Report          Date of                                                                              Findings         Type of
           Number          Report                                  Report Title                                 ($000s)          Findings
                                                      PROGRAMS AND OPERATIONS
      0-IAF-09-003-C       11/14/08      Audit of the Inter-American Foundation’s Financial Statements for
                                         Fiscal Years 2008 and 2007




              BU—Better Use of Funds         QC—Questioned Costs            UN—Unsupported Costs             Note: UN is part of QC



                                                                   Appendix I




50   USAID OFFICE OF INSPECTOR GENERAL
PERFORMANCE AUDIT REPORTS ISSUED—USAID
October 1, 2008—March 31, 2009
                                                                                                         Amount of
   Report           Date of                                                                               Findings        Type of
   Number           Report                                  Report Title                                  ($000s)         Findings
                                               ECONOMY AND EFFICIENCY
 1-521-09-001-P     10/16/08    Audit of USAID/Haiti’s Procurement and Distribution of
                                Commodities for the President’s Emergency Plan for AIDS Relief
 1-524-09-002-P     11/19/08    Audit of USAID/Nicaragua’s Education Activities
 1-517-09-003-P     12/16/08    Audit of USAID’s Anticorruption Activities in the Dominican Republic
 1-511-09-004-P     01/15/09    Audit of Engender Health’s Management of Activities Financed by             1,448              QC
                                USAID/Bolivia                                                                260               UN
 1-512-09-005-P     01/22/09    Audit of USAID/Brazil’s Environment Program
 1-522-09-006-P     02/26/09    Audit of the USAID/Honduras Trade, Investment, and
                                Competitiveness Program
 1-514-09-007-P     03/06/09    Audit of USAID/Colombia’s Human Rights Program                               397               BU
 4-656-09-001-P     12/18/08    Audit of USAID/Mozambique’s Procurement and Distribution of
                                Commodities for the President’s Emergency Plan for AIDS Relief
 4-650-09-002-P     01/21/09    Audit of USAID/Sudan’s Education Activities
 4-674-09-003-P     01/29/09    Audit of USAID/Southern Africa’s Audit Management Program
 4-613-09-004-P     03/27/09    Audit of USAID/Zimbabwe’s Compliance with the Federal
                                Information Security Management Act for Fiscal Year 2009
 4-621-09-005-P     03/30/09    Audit of USAID/Tanzania’s Basic Education Program
 5-391-09-001-P     11/25/08    Audit of USAID/Pakistan’s Earthquake Reconstruction Activities
 5-306-09-002-P     12/04/08    Audit of USAID/Afghanistan’s Higher Education Project
 6-278-09-001-P     10/28/08    Audit of USAID/Jordan’s Democracy and Governance Activities                  333               BU
 6-268-09-002-P     11/09/08    Audit of USAID/Lebanon’s Democracy and Governance Activities
 6-278-09-003-P     11/30/08    Audit of USAID/Jordan’s Fiscal Reform Project                                 42               QC
                                                                                                              13               UN
 6-263-09-004-P     03/30/09    Audit of USAID’s Office of Middle East Programs
 7-660-09-001-P     11/13/08    Audit of USAID/Democratic Republic of Congo’s Democracy and
                                Governance Activities
 9-000-09-001-P     10/08/08    Audit of USAID’s Manage-to-Budget Initiative
 9-000-09-002-P     11/20/08    Audit of USAID/Ukraine’s Displaced Children and Orphans Fund
                                Activities
 9-000-09-003-P     12/04/08    Audit of USAID’s Microfinance Activities
 9-000-09-004-P     03/25/09    Audit of USAID’s Management of Real Property
 9-000-09-005-P     03/30/09    Worldwide Audit of USAID’s Democracy and Governance Activities
 A-000-09-001-P     01/30/09    Audit of USAID’s Level of Assurance Provided by Electronic
                                Signatures in the E2 Solutions Travel System
 E-267-09-001-P     11/25/08    Audit of USAID/Iraq’s National Capacity Development Program
 E-267-09-002-P     03/04/09    Audit of USAID/Iraq’s Oversight of Private Security Contractors in
                                Iraq

       BU—Better Use of Funds        QC—Questioned Costs            UN—Unsupported Costs             Note: UN is part of QC



                                                          Appendix I




                                                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   51
     PERFORMANCE AUDIT REPORTS ISSUED—USADF and IAF

     October 1, 2008—March 31, 2009

                                                               Amount of
         Report             Date of                             Findings   Type of
         Number             Report              Report Title    ($000s)    Findings




                                         NOTHING TO REPORT





                                               Appendix I




52   USAID OFFICE OF INSPECTOR GENERAL
MISCELLANEOUS AUDIT REPORTS ISSUED—USAID
October 1, 2008—March 31, 2009
                                                                                                        Amount of
  Report           Date of                                                                               Findings       Type of
  Number           Report                                  Report Title                                  ($000s)        Findings
                                          QUALITY CONTROL REVIEWS (QCRs)
0-000-09-001-Q     12/11/08     Quality Control Review of Gelman, Rosenberg & Freedman, CPAs,
                                Audit of PACT, Inc., Fiscal Year Ended September 30, 2007
4-613-09-001-Q     01/13/09     Quality Control Review of Close-out Audit of USAID Resources
                                Managed by Transparency International Zimbabwe under Cooperative
                                Agreement No. 690-A-00-05-00104-00 for the Thirty Months Ended
                                December 15, 2007
6-263-09-001-Q     11/05/08     Quality Control Review of BDO Khaled & Co.Audit Report of
                                USAID Resources Managed by the Egyptian Foundation for Enterprise
                                Development (LEAD), Cooperative Agreement No. 263-A-00­
                                03-00049-00, Fund Accountability Statement, for the Year Ended
                                December 31, 2006
6-294-09-002-Q     02/12/09     Quality Control Review of El Wafa Co. for Financial Consulting &
                                Accounting Services Audit of USAID Resources Managed by American
                                Near East Refugee Aid, Under Cooperative Agreement No. 294-A-00­
                                04-00222-00, Palestinian Infrastructure for Needed Employment, for
                                the Period From September 28, 2004, to September 30, 2005
6-294-09-003-Q     02/23/09     Quality Control Review of Deloitte & Touche, M.E. for Audit of the
                                Fund Accountability Statement of USAID Resources Awarded to
                                CARE International Under Cooperative Agreement No. 294-A-00-05­
                                00235-00,“Emergency Medical Assistance Program—Phase III” (EMAP
                                III), for the Period From October 1, 2005, to September 30, 2006




USADF and IAF
                                                                                                       Amount of
  Report           Date of                                                                              Findings        Type of
  Number           Report                                  Report Title                                 ($000s)         Findings




                                              NOTHING TO REPORT





       BU—Better Use of Funds        QC—Questioned Costs          UN—Unsupported Costs            Note: UN is part of QC



                                                         Appendix I




                                                                 SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   53
     AFGHANISTAN AND IRAQ AUDIT REPORTS ISSUED—USAID
     October 1, 2008—March 31, 2009
                                                                                                                 Amount of
         Report           Date of                                                                                 Findings         Type of
         Number           Report                                    Report Title                                  ($000s)          Findings
                                                                AFGHANISTAN
      5-306-09-002-P      12/04/08       Audit of USAID/Afghanistan’s Higher Education Project
                                                                      IRAQ
      E-267-09-001-D      11/14/08       Audit of the Costs Incurred and Billed by International Relief and           61                QC
                                         Development, Inc. (IRD) under USAID Cooperative Agreement                    31                UN
                                         No. 267-A-00-06-00503-00 for the Period May 29, 2006, through
                                         September 30, 2007
      E-267-09-003-D      11/14/08       Audit of Costs Incurred and Billed by International Relief                   110               QC
                                         & Development, Inc. under Cooperative Agreement No.AFP-A-00­                  4                UN
                                         03-00002-00 from November 1, 2005 through
                                         March 31, 2007
      E-267-09-004-D      11/14/08       Audit of Costs Incurred and Billed by Management Systems                     363               QC
                                         International (MSI) under USAID Contract No. DFD-I-01-05­                    309               UN
                                         00221-00 for the Period July 27, 2006 through
                                         September 30, 2007
      E-267-09-005-D      11/14/08       Audit of Costs Incurred and Billed by The Services Group, Inc.                4                QC
                                         under Contract No. 267-C-00-04-00435-00 for the Period of
                                         October 1, 2006 through September 30, 2007
      E-267-09-006-D      01/27/09       Audit of the Costs Incurred and Billed by Development                        199               QC
                                         Alternatives, Inc. (DAI) under USAID Contract No. RAN-C-00-04­                36               UN
                                         00002-00 for the Period July 1, 2006 through December 31, 2006
      E-267-09-007-D      01/28/09       Audit of Costs Incurred and Billed by Save the Children Federation,          50                QC
                                         Inc. under Cooperative Agreement No.AFP-A-00-03-00005-00 for                 38                UN
                                         the Period from August 1, 2004 to April 1, 2006
      E-267-09-008-D      03/08/09       Audit of Costs Incurred and Billed by Louis Berger Group, Inc.               41                QC
                                         (LBGI) under Contract No. 267-C-00-07-00500-00 for the period
                                         from May 14, 2007 to May 13, 2008
      E-267-09-001-P      11/25/08       Audit of USAID/Iraq’s National Capacity Development Program
      E-267-09-002-P      03/04/09       Audit of USAID/Iraq’s Oversight of Private Security Contractors in
                                         Iraq


     USADF and IAF

                                                                                                                 Amount of
         Report           Date of                                                                                 Findings         Type of
         Number           Report                                    Report Title                                  ($000s)          Findings




                                                        NOTHING TO REPORT
             BU—Better Use of Funds           QC—Questioned Costs             UN—Unsupported Costs             Note: UN is part of QC


                                                                    Appendix I



54   USAID OFFICE OF INSPECTOR GENERAL
UNSUPPORTED, QUESTIONED, OR DISALLOWED COSTS OF OVER $10 MILLION OR OTHER 

SIGNIFICANT FINDINGS—USAID, USADF, and IAF

October 1, 2008—March 31, 2009


                                                                        Number of
                       Reports                                         Audit Reports          Dollar Value




                                 NOTHING TO REPORT





                                       Appendix I




                                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   55

     AUDIT REPORTS OVER 6 MONTHS OLD WITH NO MANAGEMENT DECISION—USAID
     As of March 31, 2009
                                                                                                                             Desired
                                                                                                                             Decision
         Report                           Issue                                Current                                        Target
         Number           Auditee         Date                           Recommendation Status                                 Date
      9-000-08-001-P       USAID         11/06/07   Recommendation No. 5: Pursuant to the provisions of the Privacy          Unknown
                                                    Act of 1974 (5 U.S.C. 552a), USAID established a new system of
                                                    records entitled the “Partner Vetting System” (PVS). The information
                                                    collected would be used to conduct screening to ensure that
                                                    USAID funds and USAID-funded activities are not purposefully or
                                                    inadvertently used to provide support to entities or individuals
                                                    deemed to be a risk to national security. On November 6, 2007, the
                                                    OIG made a recommendation to USAID’s Office of Security (SEC)
                                                    to develop a plan to expand and then implement its antiterrorism
                                                    vetting database for worldwide use.

                                                    SEC is waiting for a final decision to implement the PVS. On
                                                    January 2, 2009, USAID issued a final rule in the Federal Register
                                                    that exempts portions of the PVS from one or more provisions
                                                    of the Privacy Act and with the requirement that decisions to
                                                    implement the PVS will be made by the Obama administration. The
                                                    effective date for the PVS Final Rule was February 2, 2009. However,
                                                    pursuant to a January 20, 2009,White House memorandum, agencies
                                                    were asked to examine regulatory actions and consider extension
                                                    of effective dates of Final Rules for 60 days from the date published
                                                    in the Federal Registry. The effective date for the PVS Final Rule
                                                    was extended to April 2, 2009. Furthermore, a 30-day comment
                                                    period was added to run concurrently in the first 30 days of the
                                                    extension. Excluding any additional extension, the Final Rule will
                                                    become effective on April 3, 2009. As of March 18, 2009, the Acting
                                                    Administrator directed another extension of the Rule for an
                                                    additional 90 days, which will place the new effective date at roughly
                                                    July 3.




     USADF and IAF

                                                                                                                             Desired
                                                                                                                             Decision
         Report                           Issue                                Current                                        Target
         Number           Auditee         Date                           Recommendation Status                                 Date




                                                    NOTHING TO REPORT


                                                               Appendix I



56   USAID OFFICE OF INSPECTOR GENERAL
SIGNIFICANT AUDIT RECOMMENDATIONS DESCRIBED IN PREVIOUS SEMIANNUAL

REPORTS WITHOUT FINAL ACTION—USAID
As of March 31, 2009
                                                                                                                              Final
                                                                                                                             Action
  Report                                                                        Issue        Rec.      Management            Target
  Number                           Subject of Report                            Date         No.       Decision Date          Date
4-615-06-011-P   USAID/Kenya’s Compliance with Financial Audit                07/31/06        5           10/13/06            04/09
                 Requirements Regarding Foreign Recipients
4-656-06-015-P   USAID/Mozambique’s Compliance with Financial Audit           09/22/06        4           09/22/06            05/09
                 Requirements Regarding Foreign Recipients
A-000-07-004-P   Audit of USAID’s Pre-Deployment Activities for Its           07/19/07        1           07/19/07           06/09
                 Global Acquisition System                                                    2           07/19/07           06/09
1-527-08-003-P   Follow-up Audit of USAID/Peru’s Alternative                  03/25/08        1           07/02/08           07/09
                 Development Program                                                          5           03/27/09           03/10
                                                                                              6           07/02/08           07/09
                                                                                              7           03/27/09           03/10
E-267-08-003-P   USAID/Iraq’s Management of Its Official Vehicle Fleet        06/24/08        2           06/24/08            05/09
5-306-08-009-P   USAID/Afghanistan’s Accelerating Sustainable                 08/08/08        2           08/08/08           08/09
                 Agriculture Program                                                           3          08/08/08           08/09
                                                                                               5          08/08/08           08/09
                                                                                               6          08/08/08           04/09
                                                                                              13          08/08/08           08/09
                                                                                              14          08/08/08           08/09
A-000-08-009-P   USAID’s Compliance with the Federal Information              09/29/08         1          09/29/08           04/09
                 Security Management Act for Fiscal Year 2008                                  2          09/29/08           04/09
                                                                                               3          09/29/08           04/09
                                                                                               4          09/29/08           04/09
                                                                                               5          09/29/08           04/09
                                                                                               6          09/29/08           04/09
                                                                                               7          09/29/08           04/09
                                                                                               8          09/29/08           04/09
                                                                                               9          09/29/08           09/09
                                                                                              10          09/29/08           04/09
                                                                                              11          09/29/08           11/09
                                                                                              12          09/29/08           04/09
                                                                                              13          09/29/08           06/09
                                                                                              14          09/29/08           09/09
                                                                                              15          09/29/08           09/09
                                                                                              16          09/29/08           09/09
                                                                                              17          09/29/08           09/09
                                                                                             18.1         09/29/08           04/09
                                                                                             18.2         09/29/08           04/09
                                                                                             18.3         09/29/08           04/09
                                                                                             18.4         09/29/08           04/09
                                                                                             18.5         09/29/08           04/09
                                                                                             18.6         09/29/08           04/09
                                                                                              19          09/29/08           05/09




                                                            Appendix I



                                                                      SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   57
                                                                                                                  Final
                                                                                                                 Action
        Report                                                                  Issue     Rec.   Management      Target
        Number                           Subject of Report                      Date      No.    Decision Date    Date
     4-654-08-006-P    USAID/Angola’s Democracy and Governance Activities      09/30/08    3       09/30/08      09/09
     1-598-08-006-P    Compliance with Forward Funding Requirements by         07/29/08    1.5     10/29/08      10/09
                       Mission in the Latin America and the Caribbean Bureau               1.6     09/22/08      06/09
                                                                                           1.9     12/19/08      06/09
                                                                                           2.1     11/21/08      07/09
                                                                                           2.9     10/29/08      04/09
                                                                                          2.10     09/22/08      04/09




                                                                Appendix I



58   USAID OFFICE OF INSPECTOR GENERAL
SIGNIFICANT AUDIT RECOMMENDATIONS DESCRIBED IN PREVIOUS SEMIANNUAL

REPORTS WITHOUT FINAL ACTION—USADF
As of March 31, 2009
                                                                                                                          Final
                                                                                                                         Action
   Report                                                                     Issue       Rec.      Management           Target
   Number                           Subject of Report                         Date        No.       Decision Date         Date
7-ADF-08-006-P   Follow-up Audit of the Awarding and Monitoring of Grants    06/12/08        1         06/12/08           07/09
                 by the African Development Foundation                                       2         06/12/08           07/09
                                                                                             3         06/12/08           04/09
                                                                                             4         06/12/08           05/09
                                                                                             5         06/12/08           07/09
                                                                                             6         06/12/08           07/09
                                                                                             7         06/12/08           05/09
                                                                                             8         06/12/08           04/09
                                                                                             9         06/12/08           06/09
                                                                                            10         06/12/08           04/09
                                                                                            11         06/12/08           06/09
                                                                                            12         06/12/08           06/09
                                                                                            13         06/12/08           05/09
                                                                                            14         06/12/08           04/09
                                                                                            15         06/12/08           06/09
                                                                                            16         06/12/08           07/09
                                                                                            18         06/12/08           07/09
7-ADF-08-007-P   African Development Foundation/Ghana Project Activities     09/17/08        1
        09/17/08           07/09
                                                                                             2
        09/17/08           04/09
                                                                                             3
        09/17/08           05/09
                                                                                             4
        09/17/08           05/09
                                                                                             5
        01/27/09           07/09
                                                                                             6
        09/17/08           04/09
                                                                                             7
        09/17/08           07/09
                                                                                             8
        09/17/08           05/09
                                                                                             9
        01/27/09           04/09
                                                                                            10
        09/17/08           04/09
                                                                                            11
        09/17/08           04/09
                                                                                            12
        09/17/08           05/09
                                                                                            13
        09/17/08           07/09
                                                                                            14
        09/17/08           07/09
                                                                                            15
        09/17/08           04/09
                                                                                            16
        09/17/08           05/09
                                                                                           17.1
       09/26/08           06/09
                                                                                           17.2
       09/26/08           06/09
                                                                                           17.3
       09/26/08           06/09
                                                                                           17.4
       09/26/08           06/09
                                                                                            18
        09/17/08           05/09
A-ADF-08-008-P   U.S.African Development Foundation’s Compliance with        09/23/08       1          09/23/08           07/09
                 Provisions of the Federal Information Security Management                  2          09/23/08           09/09
                 Act for FY 2008                                                            3          09/23/08           05/09
                                                                                            4          09/23/08           11/09




                                                          Appendix I



                                                                  SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   59
     SIGNIFICANT AUDIT RECOMMENDATIONS DESCRIBED IN PREVIOUS SEMIANNUAL
     REPORTS WITHOUT FINAL ACTION—IAF
     As of March 31, 2009
                                                                                                                       Final
                                                                                                                      Action
        Report                                                                       Issue     Rec.   Management      Target
        Number                             Subject of Report                         Date      No.    Decision Date    Date
     A-IAF-08-007-P     Inter-American Foundation’s Compliance with Provisions of   09/11/08    1       09/11/08      04/09
                        the Federal Information Security Management Act for
                        FY 2008




                                                                 Appendix I



60   USAID OFFICE OF INSPECTOR GENERAL
REPORTS ISSUED WITH QUESTIONED AND UNSUPPORTED COSTS—USAID
October 1, 2008—March 31, 2009
                                                                              Number
                                                                              of Audit           Questioned            Unsupported
                                Reports                                       Reports             Costs ($)             Costs1 ($)
A. For which no management decision had been made as of                             33            31,488,5412,3          22,097,3212,3
   October 1, 2008
B.   Add: Reports issued October 1, 2008, through
                                                                                    93            19,151,7054            10,769,8014
     March 31, 2009
     Subtotal                                                                     126             50,640,246             32,867,122
C. Less: Reports with a management decision made                                    765           39,934,0856            27,508,8826
   October 1, 2008, through March 31, 2009
     i.    Value of recommendations disallowed by Agency
                                                                                                  17,663,795             14,528,156
           officials

     ii.   Value of recommendations allowed by Agency officials                                   22,270,290             12,980,726

D. For which no management decision had been made as of                             50            10,706,1617             5,358,2407
   March 31, 2009




     1.	   Unsupported costs are included in questioned costs, but are provided as additional information as required by the
           Inspector General Act Amendments of 1988 (Public Law 100–504).

     2.	   The ending balance at September 30, 2008, for questioned costs totaling $27,196,672 and for unsupported costs
           totaling $22,046,175 was increased by $4,291,869 and $51,146, respectively, to reflect adjustments in recommendations
           from prior periods.

     3.	   Amounts include $3,577,241 in questioned costs and $1,228,655 in unsupported costs for audits performed for OIG
           by other Federal audit agencies.

     4.	   Amounts include $4,068,772 in questioned costs and $426,701 in unsupported costs for audits performed for OIG by
           other Federal audit agencies.

     5.	   Unlike the monetary figures of this row, this figure is not being subtracted from the subtotal. Some audit reports
           counted here are again counted in the figure below it.

     6.	   Amounts include $3,779,859 in questioned costs and $1,268,643 in unsupported costs for audits performed for OIG
           by other Federal audit agencies.

     7.	   Amounts include $3,888,643 in questioned costs and $386,713 in unsupported costs for audits performed for OIG by
           other Federal audit agencies.




                                                               Appendix I



                                                                        SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   61
     REPORTS ISSUED WITH QUESTIONED AND UNSUPPORTED COSTS—USADF
     October 1, 2008—March 31, 2009
                                                                                     Number
                                                                                     of Audit           Questioned          Unsupported
                                      Reports                                        Reports             Costs ($)           Costs* ($)
     A. For which no management decision had been made as of                             1               489,305
        October 1, 2008
     B.    Add: Reports issued October 1, 2008, through
           March 31, 2009
           Subtotal                                                                      1               489,305
     C. Less: Reports with a management decision made                                    1               489,305
        October 1, 2008, through March 31, 2009

           i.    Value of recommendations disallowed by Agency officials

           ii.   Value of recommendations allowed by Agency officials

     D. For which no management decision had been made as of
        March 31, 2009


           *	    Unsupported costs are included in questioned costs, but are provided as additional information as required by the
                 Inspector General Act Amendments of 1988 (Public Law 100–504).




     IAF
                                                                                     Number
                                                                                     of Audit           Questioned          Unsupported
                                      Reports                                        Reports             Costs ($)           Costs* ($)




                                                         NOTHING TO REPORT





                                                                     Appendix I



62   USAID OFFICE OF INSPECTOR GENERAL
REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE—USAID
October 1, 2008—March 31, 2009

                                                                                        Number of
                                     Reports                                           Audit Reports           Amounts ($)

A. For which no management decision had been made as of October 1, 2008                        1               41,149,819

B.   Add: Reports issued October 1, 2008, through March 31, 2009                               2                   730,282

     Subtotal                                                                                  3               41,880,101
C. Less: Reports with a management decision made as of October 1, 2008,                        3               41,880,101
   through March 31, 2009

     i.    Value of recommendations agreed to by Agency officials                                              14,007,517

     ii.   Value of recommendations not agreed to by Agency officials                                          27,872,584

D.   For which no management decision had been made as of March 31, 2009




USADF and IAF

                                                                                        Number of
                                     Reports                                           Audit Reports           Amounts ($)




                                               NOTHING TO REPORT





                                                         Appendix I



                                                                 SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   63
64   USAID OFFICE OF INSPECTOR GENERAL
            APPENDIX II

SUMMARY TABLES—USAID, USADF, AND IAF





                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   65

66   USAID OFFICE OF INSPECTOR GENERAL
The following tables show summary data related to OIG’s audits and investigations.

SUMMARY OF AUDITS CONDUCTED AND THE RESULTS
As of March 31, 2009
                                                                                                   Amount of
                       Type of Report                         Number of Reports               Recommendations ($)*

Financial Audits

   USAID Programs and Operations                                           1

   Foundations’ Programs and Operations                                    2

   U.S.-Based Contractors                                                32
                        3,217,961

   U.S.-Based Grantees                                                   11
                        1,027,231

        Quality Control Reviews
                                           1

   Foreign-Based Organizations
                                         135
                       13,416,709

        Quality Control Reviews
                                           4

   Enterprise Funds
                                                     11

Performance Audits
   USAID Economy and Efficiency                                          27                         2,220,086
   Foundations’ Economy and Efficiency

Other                                                                      1


                            Total                                       225                        19,881,987


     * Monetary recommendations include questioned costs and funds put to better use.




                                                      Appendix II




                                                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   67

     SUMMARY OF INVESTIGATIVE ACTIVITY AND RESULTS—USAID
     As of March 31, 2009

                                                 INVESTIGATIVE ACTIONS
           Workload                                           Civil
           Cases Opened                          55           Civil Referrals                          4
           Cases Closed                          47           Civil Declinations
                                                              Complaints
                                                              Judgments / Recoveries
                                                              Settlements
           Criminal                                           Administrative
           Prosecutive Referrals                  8           Reprimands / Demotions                   1
           Prosecutive Declinations               3           Personnel Suspensions                    3
           Arrests                                1           Resignations / Terminations              13
           Indictments                            2           Other Administrative Actions             1
           Convictions                            2           Recoveries                               1
           Sentencing                             1           Procurement
           Fines                                  1           Suspensions / Debarments                 9
           Restitutions                                       Savings                                  8
                                                              Recoveries                               1
                                                              Systemic Changes                         1




                                              INVESTIGATIVE RECOVERIES

                           Judicial Recoveries                                               $10,000
                           Administrative Recoveries                                        $613,416
                           Savings                                                     $67,364,628

                                  Total Investigative Savings / Recoveries             $67,988,044




                                                          Appendix II



68   USAID OFFICE OF INSPECTOR GENERAL
FRAUD AWARENESS BRIEFINGS CONDUCTED WORLDWIDE
As of March 31, 2009
                                                                                             Professional
  Month               Location                     Sessions          Attendees                Affiliation
  OCT          San Salvador, El Salvador                 1                   22          USAID contractors
                  Washington, DC                         1                   30          USAID contractors
  NOV              Baghdad, Iraq                         5                  68           USAID contractors
               Phnom Penh, Cambodia                      3                 220           USAID personnel
                  Washington, DC                         2                  44           USAID personnel
                  West Bank/Gaza                         2                 154           USAID contractors
                 Kabul, Afghanistan                      1                  21           USAID contractors
  DEC               Baghdad, Iraq                        1                    6          USAID personnel
                   Rangoon, Burma                        1                   27          USAID personnel
                   Cotonou, Benin                        1                   22          USAID personnel
   JAN            Windhoek, Nambia                       3                   45          USAID personnel
                 Tashkent, Uzbekistan                    3                   44          USAID personnel
                     Cairo, Egypt                        1                    6          USAID personnel
   FEB    Santo Domingo, Dominican Republic              1                   25          USAID personnel
                  Kabul, Afghanistan                     4                   97          USAID contractors
                   Washington, DC                        1                   41          USAID personnel
  MAR             Washington, DC                         2                   63          USAID personnel
                Pretoria, South Africa                   2                   30          USAID personnel
                   Cotonou, Benin                        2                   44          USAID personnel
                 Manila, Philippines                     1                   42          USAID personnel


                        Total                            38             1,051




                                           Appendix II



                                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   69
70   USAID OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO THE CONGRESS

               FOR

MILLENNIUM CHALLENGE CORPORATION





                  SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   71
72   USAID OFFICE OF INSPECTOR GENERAL
EXECUTIVE SUMMARY

MCC has been operating for over 5 years, and many compacts are well underway across an array of
countries. Important conclusions are being documented by audits of the ongoing programs. The audits of
U.S. taxpayer monies granted to compact recipients continue to receive OIG’s utmost attention. With the
assistance of independent public accounting firms, OIG issued 13 audit reports covering approximately
$91.3 million held by compact recipients. The audits identified questioned costs in the amount of $214,000.

OIG work on the second compact signed (Cape Verde) and the third compact signed (Honduras) has
produced some important findings. The MCC’s original compact development process, commodity price
changes, and capped budgets are having consequences on compacts, as projects must be redesigned. OIG’s
audit of the Millennium Challenge Account-Cape Verde (MCA-CV) activities found that it was not achieving
all targets, whereas the audit of MCA-Honduras (MCA-H) activities revealed that MCC had ensured that
MCA-H established proper performance milestones and targets.

On March 26, 2009, MCC announced its intent to expand its options for conducting financial audits overseas
and to improve the effectiveness of the audits. OIG’s participation in MCC’s financial audit program played
an important role in this initiative. Previously, audits were conducted by independent accounting firms based
overseas. Henceforth, MCC will seek expressions of interest from U.S.-based audit firms and individuals.

Although MCC has continued to receive an unqualified audit opinion, difficulties in producing timely and
reliable financial statements for audit continue to exist. OIG identified significant deficiencies in MCC’s
financial statements, including one material weakness. These deficiencies were related to MCC’s inability to
provide timely submission of complete and reliable financial statement information. Specifically, beginning
balances for FY 2008 were unreliable, and necessary quality control reviews were not performed. The
failure to exert sufficient controls over financial reporting created the potential for misstatement in the
financial statements. As a result, MCC’s inability to identify and report reliable financial information was
reported as a material weakness.

At the close of the reporting period, although MCC had set forth a plan to respond to the recommendation
and had taken full responsibility for the financial statements, it had not yet taken all steps needed to reach
final action on the OIG recommendation.

OIG continues to provide fraud awareness briefings to compact recipients. In December 2008, OIG staff
provided a briefing for U.S. and foreign government officials, private sector accountants, and others in
Morocco.




                                                         SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   73
74   USAID OFFICE OF INSPECTOR GENERAL
SIGNIFICANT ACCOMPLISHMENTS—MCC
ECONOMIC GROWTH AND PROSPERITY

Compact Programs
The compact is the chief grant instrument for MCC. Compact recipients must ensure that certain
conditions are met after the agreement is signed, which can take several months to resolve. When the
agreement conditions are met, the agreement timeline begins and the agreement is said to “enter into
force.” According to MCC officials,“entry into force” is the point at which a binding commitment is
recognized and compact funds are obligated. Each compact recipient identifies an agency or entity that
will manage the compact funds or accounts. Such organizations are usually called “Millennium Challenge
Accounts” (MCA) and refer to the funds of the compact.

Audit of MCC Compact Programs in Cape Verde. On July 4, 2005, MCC and the Government of Cape
Verde signed a 5-year agreement totaling approximately $110 million, which entered into force on
October 17, 2005. The goals of the compact are to encourage economic growth and reduce poverty
by increasing agricultural production in key areas, increase integration of the internal market, reduce
transportation costs, and develop the private sector. The Cape Verdean Government designated the
MCA-CV as the accountable entity that would have the legal authority to oversee the compact during the
compact period.

The audit team found that MCA-CV is not achieving all of its targets. Specifically, although MCA-CV has
begun implementing the Watershed Management and Agricultural Support (WMAS) Project, the project has
experienced several limitations that may imperil the project’s success. For example, farmers may not be able
to benefit fully from the project’s drip irrigation system if they are unable to receive water from the dikes
and reservoirs. In addition, because the monitoring and evaluation plan does not measure the success of the
program, MCC may have difficulty in determining the effectiveness of the compact programs, and program
management may suffer. The infrastructure projects experienced problems during compact implementation
because an initial due diligence process failed to identify faulty road designs. The design flaws later caused
significant delays and, ultimately, a reduction of the number of roads constructed—although the compact
was budgeted to fund five roads, MCC will now fund only three. With the exception of the financial data
presented in the Quarterly Status Report and the chief executive officer’s report, MCC appears to have
provided complete and accurate reporting of its program in Cape Verde to its stakeholders. However,
incorrect dates were used to report the financial data in the Quarterly Status Report, which could confuse
or misinform the public.

The report includes seven recommendations to MCC’s vice president of compact implementation and the
Congressional and Public Affairs Departments:

    • 	 Require the Government of Cape Verde to provide a formal statement showing how it will fund the
        remaining portions of the WMAS project.
    • 	 Require MCA-CV to revise its current head-of-household list and include all local residents who are
        eligible to apply for the loans.
    • 	 Request that MCA-CV develop—and provide to MCC—a set of requirements to prevent farmers
        from obtaining loans for drip irrigation if they do not have adequate access to water.
    • 	 Provide documentation on the location or spending of $73,864 that was obligated to the 

        microfinance institution, Soldifogo.

    • 	 Develop a policy to clarify the modification of the Indicator Tracking Tables and the Monitoring and
        Evaluation plan.



                                                         SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   75
           • 	 Develop a policy to conduct a prefeasibility study prior to entry into force.
           • 	 Specify, in its Quarterly Status Report, the dates that the cumulative disbursements represent.

      In finalizing the report, OIG received and considered MCC’s response to the draft audit report. In its
      comments, MCC concurred with seven recommendations. OIG considers management decision and final
      action to have been reached for recommendations 1, 2, 3, 4, and 6 because MCC has provided OIG with
      documentation as evidence of their improvement. In addition, management decision was reached for
      recommendations 5 and 7 but final action will not be taken until MCC provides additional documentation as
      support of its improvement.

      (Audit Report No. M-000-09-002-P)

      Audit of MCC Programs in Honduras. On June 13, 2005, MCC and the Government of Honduras signed
      a 5-year, $215 million agreement. The compact entered into force on September 29, 2005, with a goal of
      alleviating two key impediments to economic growth: low agricultural productivity and high transportation
      costs. The Honduran Government designated the MCA-H as the accountable entity that would have the
      legal authority to oversee the implementation of the compact programs during the compact period.

      The audit team found that, for the most part, MCC had ensured that MCA-H established proper
      performance milestones and targets, but some indicators did not reflect revised project activities.
      MCA-H achieved 3 of 10 performance milestones and targets reviewed, and the transportation project has
      encountered budget shortfalls due to an increase in costs and redesign of Highway CA-5. Furthermore,
      MCC did not document differences between the expected and actual results; however, with the exception
      of the differences between the expected and actual results, MCC appears to have provided complete and
      accurate reporting of its program in Honduras to its stakeholders.

      This report included five recommendations to MCC’s vice president of compact implementation:

           • 	 Revise the two indicators—percentage of MCA-H loan portfolio at risk and funds lent from MCA­
               H to financial institutions—to reflect MCC’s and MCA-H’s revision of the Farmers Access to Credit
               activity.
           • 	 Analyze the Rural Development Project’s Farmer Training and Development activity to explain the
               increased income of beneficiaries and document the analysis.
           • 	 Develop a strategy to resolve budget shortfalls when they occur.
           • 	 Clarify MCC’s expectations on roles and responsibilities of the MCA monitoring and evaluation
               function, specifically on the use of monitoring as a management tool.
           • 	 Issue guidance by December 31, 2008, on reporting requirements for performance deviations from
               the targets established in its monitoring and evaluation plans.

      In finalizing the report, OIG received and considered MCC’s response to the draft audit report. In
      its comments, MCC concurred with recommendations 1, 3, 4, and 5. However, MCC did not concur
      with recommendation 2. Therefore, OIG considers management decision to have been reached on
      recommendations 1, 3, 4, and 5. Management decision has not been reached on recommendation 2 because
      MCC did not provide a detailed analysis to support how the Rural Development Project caused the
      increase in farm and employment income.

      (Audit Report No. M-000-09-001-P)




76   USAID OFFICE OF INSPECTOR GENERAL
Economic Security
Three USAID Contractors Terminated for Accepting Kickbacks (Philippines). Pursuant to an OIG
investigation, a local Philippines MCC Threshold Program contractor employee, who had served as a
procurement specialist, was terminated for taking kickbacks. Specifically, the employee had favored certain
vendors and had taken measures to ensure that his preferred vendors won, including changing and omitting
competitive bids. The investigation also disclosed that the employee had been accepting kickbacks from
vendors. In addition, a chief of party and a director of procurement, both U.S. citizens, were terminated for
the lax contract oversight that had led to the kickback arrangements. Finally, the procurement specialist and
two vendors were suspended from conducting business with the U.S. Government.




                                                         SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   77
      MANAGEMENT CAPABILITIES

      Financial Management
      Audit of MCC’s Financial Statements, Internal Controls, and Compliance for the Periods Ending
      September 30, 2008, and 2007. OIG contracted with an independent public accounting firm to conduct
      an audit of MCC’s financial statements, internal controls, and compliance with laws and regulations for the
      periods ending September 30, 2008, and September 30, 2007.

      The audit found that MCC’s financial statements are presented fairly in all material respects and in
      conformity with generally accepted U.S. Government accounting principles. However, with respect to MCC’s
      internal controls over financial reporting and its operations, the audit disclosed the following:

           • 	 Four significant deficiencies in the internal controls over financial reporting and its operation, one of
               which is considered a material weakness.
           • 	 No instances of material noncompliance with laws and regulations.

      The four significant deficiencies in the internal controls over financial reporting and its operation are listed
      below:

           •	   Absence of quality controls over financial reporting for the Threshold Program (material weakness).
           •	   Authorization for personnel actions inconsistent with stated policies and procedures.
           •	   Transactions not always recorded in the period they occurred.
           •	   Lack of adequate review for accuracy and duplication prior to processing and recording transactions
                in General Ledger.

      In finalizing the report, OIG received and considered MCC’s response to the draft audit report. In its
      comments, MCC concurred with all of the recommendations.Therefore, management decision was reached
      on all four audit recommendations.

      (Audit Report No. M-000-09-001-C)


      Fund Accountability Statements
      Fund Accountability Statement Audits. OIG’s financial audit team is responsible for reviewing and issuing
      semiannual fund accountability statement audits of accountable entities. The audits are conducted by
      independent public auditors as required by compact agreements. The team also performs limited-scope
      audits of accountable entities different from those performed by independent public auditors, reviews the
      quality of audit work performed by independent public auditors (quality control reviews), and approves
      audit firms to ensure their eligibility to conduct audits of compact funds. This section discusses the audit
      reports issued and the supporting work under the financial audit program.

      Under the terms of MCC’s compacts, funds expended by a recipient country are required to be audited at
      least annually but are usually audited twice a year. The recipient establishes a fund—often titled “MCA”—
      and produces financial statements documenting account activity. The audit of the fund accountability
      statement is conducted by a firm that OIG has approved. The audits include four elements that may or may
      not be applicable in all compacts. The main elements are as follows:

           • 	 Expressing an opinion on the fund accountability statement produced by the entity that oversees
               the financial aspects of compact administration.




78   USAID OFFICE OF INSPECTOR GENERAL
      • 	 Evaluating and obtaining an understanding of the entity’s internal control structure and issuing
          findings of internal control deficiencies that may be of such size or scope as to potentially influence
          the financial statements, making them material.
      • 	 Determining whether the compact complies with its terms and applicable laws and regulations and
          issuing findings of noncompliance.
      • 	 Determining whether cost-sharing contributions were provided and accounted for in accordance
          with the terms of the compact and supplemental agreements, where applicable.

The auditor issues an opinion on whether the financial statements present fairly, in all material respects, the
program revenues and costs incurred and reimbursed in conformity with the terms of a compact agreement
and related supplemental agreements for the period being audited. The auditor is required to employ
generally accepted U.S. Government auditing standards in performing the audits. All audit reports are
reviewed and issued by OIG.

During the reporting period, audits of incurred costs were issued for MCC-funded programs in Armenia,
Benin, Cape Verde, El Salvador, Georgia, Ghana, Honduras, Lesotho, Madagascar, Mali, Nicaragua, and Vanuatu.

Armenia.9 The MCA-Armenia audit covered fund balances of nearly $7.2 million for the period from
January 1 to June 30, 2008. The $237.7 million, 5-year compact will focus on reducing rural poverty through
a sustainable increase in the economic performance of the agricultural sector.

The fund accountability statement presents fairly, in all material respects, the program revenues as well as
costs incurred and reimbursed during the period from January 1 to June 30, 2008.

The audit noted the following internal control weaknesses:

      • 	 Payment request forms and payment request processing forms were not always properly authorized
          by MCA-Armenia or the authorized representative of the fiscal agent.
      • 	 In isolated instances during the reporting period, invoices to be paid by the fiscal agent did not
          include detailed cost breakdowns of items, so that the fiscal agent could not determine whether the
          costs to be reimbursed were allowable.

The audit disclosed the following noncompliance practices:

      • 	 Average monthly salary for the purposes of vacation pay was incorrectly calculated.
      • 	 The taxable portion of lodging expenses incurred by MCA-Armenia employees was incorrectly
          determined.
      • 	 MCA-Armenia concluded a contract with a vendor on payment terms that contradicted the
          prompt-payment terms stipulated in the fiscal accountability plan.

(Audit Report No. M-000-09-008-N)

Quality Control Review—Armenia. OIG conducted a review of the audit performed by the local audit firm
in Armenia. The audit report had been adequately planned and the work was performed in accordance with
generally accepted U.S. Government auditing standards. Two issues were discussed with the audit firm.

(Quality Control Review No. M-000-09-002-Q)




9.	   Due to democratic governance concerns, MCC has suspended assistance for the rehabilitation of rural roads, which the
      Government of Armenia is now funding. MCC is continuing its assistance program for irrigation infrastructure, which is well
      underway. The suspension was reviewed by MCC at its Board of Directors meeting held March 11, 2009.



                                                                      SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   79
      Benin. The MCA-Benin audit covered incurred costs of nearly $7.5 million for the period from January 1 to
      June 30, 2008. The 5-year compact for approximately $307 million addresses key constraints to economic
      growth and poverty reduction.

      The auditors reported that the fund accountability statement presented fairly, in all material respects,
      program revenue and costs incurred for the period audited. OIG questioned $8,313 of airfare associated
      with two French journalists who traveled February 13–17, 2008, to Benin at the request of MCA-Benin. The
      airfare was deemed unreasonable and not eligible to be charged to the MCA-Benin compact.

      OIG also documented an internal control deficiency, in that fully adequate travel policies and procedures
      were not prepared and adopted. In addition, MCA-Benin did not comply with its existing travel policies
      and procedures because some international travel expenditures were not adequately supported with
      appropriate documentation.

      (Audit Report No. M-000-09-005-N)

      Cape Verde. The MCA-CV audit covered incurred costs of $4.1 million for the period from July 1 to
      December 31, 2007. The 5-year compact for $110 million supports watershed management, agriculture,
      infrastructure, and private sector development.

      The audit disclosed ineligible costs of $23,542 for interest penalties for late payments by vendors. OIG
      recommended that MCA-CV reimburse MCC for that amount. The recommendation is pending MCC
      action.

      The audit identified internal control deficiencies in the following five areas:

           •    Value-added tax reimbursement (repeated finding)
           •    Bank reconciliation (repeated finding)
           •    Government contribution report (fiscal agent—repeated finding)
           •    Quarterly report (repeated finding)
           •    Authorized signatures

      The audit also identified three areas of noncompliance:

           •    Property and equipment (repeated finding)
           •    Deadline for payment to suppliers
           •    Tax refund (repeated finding)

      (Audit Report No. M-000-09-009-N)


      El Salvador. The MCA-El Salvador audit covered incurred costs of nearly $2.9 million for the period from
      January 1 to June 30, 2008. The 5-year compact for $460.9 million contains projects to increase human and
      physical capital, expand production and employment, and reduce travel time and costs.

      The MCA-El Salvador audit disclosed $56,804 in ineligible costs relating to inadequate documentation. The
      audit also found an internal control deficiency caused by insufficient oversight of the procurement process.




80   USAID OFFICE OF INSPECTOR GENERAL
Six compliance issues were identified as follows:


    •	  Minimum numbers of bids were not obtained.
    •	  Vetting of potential providers against eligibility lists was not documented.
    •	  Standard solicitation documents were not utilized.
    •	  Awards of contracts were not posted on Web sites.
    •	  MCA did not provide evidence that quotes received in shipping procurements were opened at the
        deadline.
    • 	 MCA did not provide evidence that the list of bidders and their respective questions were sent to
        all participating bidders.

(Audit Report No. M-000-09-004-N)

Georgia. The MCA-Georgia (MCG)10 audit covered incurred costs of nearly $14.5 million for the period
from January 1 to June 30, 2008. The 5-year, $294.7 million compact funds projects in following areas:

    •    S	 amtskhe–Javakheti Road
    •     	Energy rehabilitation
    •	     Regional infrastructure development
    •	     Georgian Regional Development Fund
    •    A	 gribusiness development

The fund accountability statement presents fairly, in all material respects, program revenues as well as costs
incurred and reimbursed.

The audit found the following internal control deficiencies:

    • 	 MCG did not fully document milestone achievements by grantees.
    • 	 Asset management practices did not fully comply with requirements.

The audit found the following noncompliance issues:

    • 	 A letter of credit issued by the Bank of Georgia on behalf of the MCG did not have the required
        approval.
    • 	 The Bank of Georgia did not remit interest to the designated account on time.
    • 	 The manager’s request for a reimbursement of costs from the Georgian Regional Development
        Fund did not meet established criteria.

(Audit Report No. M-000-09-011-N)

Quality Control Review—Georgia. OIG conducted a quality control review of work by the audit firm that
conducts the routine audits of compact funds in Georgia. The review found that the audit work was
adequately planned and that the working papers supported the audit report conclusions in accordance with
generally accepted Government auditing standards and other guidelines. Two matters were discussed with
the firm to improve future reports.

(Quality Control Review No. M-000-09-001-Q)




10.	 “MCG” is the correct abbreviation for MCA-Georgia.




                                                          SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   81
      Ghana. The Millenium Development Authority (MiDA)-Ghana audit covered incurred costs totaling
      $5.3 million for the period from January 1 to June 30, 2008. The 5-year compact for $547 million
      addresses enhancing the profitability of cultivation, services to agriculture, and product handling; reducing
      transportation costs affecting agricultural commerce; and strengthening rural institutions that provide
      services complementary to and supportive of agricultural and agribusiness development.

      The MiDA-Ghana fund accountability statement presents fairly, in all material respects, program revenue
      received and expenses incurred and reimbursed during the period under audit.

      The audit report issued a recommendation requesting that MCC have MiDA-Ghana correct the
      repeated instances of internal control deficiencies and noncompliance previously reported in Report
      No. M-000-08-019-N, dated August 8, 2008, but not implemented. OIG further recommended that MCC
      verify that corrective action has taken place to follow up on these previous audit recommendations.

      (Audit Report No. M-000-09-002-N)

      Honduras. The MCA-Honduras audit covered incurred costs of $6 million for the period from January 1
      to June 30, 2008. The 5-year compact for approximately $215 million supports rural development and
      improvements in transportation.

      The audit disclosed no deficiencies in internal control or compliance.

      (Audit Report No. M-000-09-010-N)

      Lesotho. OIG issued its first audit report of the compact with MCA-Lesotho covering incurred costs of
      $2.2 million for the period of July 23 through June 30, 2008. The 5-year compact for $362.6 million will
      address poverty reduction by improving the health system, removing barriers to foreign and local private
      sector investment, and providing a water supply for industrial and domestic use.

      The auditors reported that, except for unsupported questioned costs of $56,009, the fund accountability
      statement presented fairly, in all material respects, program revenues and expenditures for the period
      audited. The questioned costs pertained to failure on the part of MCA-Lesotho to produce supporting
      documents.

      On the basis of its review of the audit report, OIG recommended that the responsible MCC official make a
      management decision on the $56,009 questioned (unsupported) costs and recover any amounts determined
      to be unallowable.

      (Audit Report No. M-000-09-012-N)

      Madagascar.11 The MCA-Madagascar audit covered incurred costs of $14.3 million for the period from
      January 1 to June 30, 2008. The 4-year compact for $110 million will address poverty reduction by focusing
      on three areas: property rights, the financial sector, and agricultural business investment.

      The MCA-Madagascar fund accountability statement presents fairly, in all material respects, program revenue
      received and expenses incurred and reimbursed during the period under audit.




      11.	 On March 20, 2009, MCC placed a hold on the Madagascar program because of the country’s political instability. In its press
           release, MCC noted that it had disbursed over half of the grant to Madagascar.



82   USAID OFFICE OF INSPECTOR GENERAL
No internal control or compliance problems were reported.


(Audit Report No. M-000-09-003-N)

Mali. OIG issued its second audit report of the compact with MCA-Mali, covering incurred costs of nearly
$6.2 million for the period of January 1 through June 30, 2008. The 5-year compact for $460.8 million is
designed to reduce poverty and promote economic growth in the Republic of Mali.

The auditors reported that, except for unsupported questioned costs of $20,975, the fund accountability
statement presented fairly, in all material respects, program revenues and expenditures for the period
audited. The questioned costs pertained to the purchase of a multipurpose photocopier.

The independent auditors reported a significant internal control deficiency in that procurement procedures
were not followed.

OIG made the following recommendations on the basis of its review of the audit report:

    • 	 MCC should request that MCA-Mali submit a corrective action plan to correct the internal control
        deficiency.
    • 	 MCC should make a management decision on the $20,975 in questioned costs as reflected on the
        fund accountability statement and recover any amounts determined to be unallowable.

(Audit Report No. M-000-09-013-N)

Nicaragua.12 The MCA-Nicaragua audit covered incurred costs of $9.1 million for the period from
January 1 to June 30, 2008. The 5-year compact for approximately $175 million seeks to increase investment
by strengthening property rights; reduce transportation costs; and increase profits and wages of farms and
enterprises. The MCA-Nicaragua fund accountability statement presents fairly, in all material respects,
program revenue received and expenses incurred and reimbursed during the period under audit.

The audit found the following significant deficiencies in internal control:

    • 	 Need for improvement and formalization of policies and procedures to control incoming and
        outgoing goods and supplies.
    • 	 Weaknesses in the control system for the Rural Business Project.
    • 	 Lack of authorization and communication of IT systems security policy.
    • 	 Lack of formal and documented contingency plan.
    • 	 A matter affecting the physical security of environmental control.

In addition, the auditors identified a noncompliance matter that had been previously reported for correction
and had only been partially implemented. This matter involves the noncompliance of procedures for the use
and control of transportation equipment assigned to the Technical Secretariat of Proyecto de Ordenamiento
de la Propiedad (PRODEP).

(Audit Report No. M-000-09-006-N)



12.	 In December 2008, MCC suspended assistance for all new activities not yet under contract. It also suspended the property
     regularization project being implemented by the Government of Nicaragua. The suspension was upheld at the MCC Board of
     Directors meeting of March 11, 2009.



                                                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   83
      Quality Control Review—Nicaragua. The review of the audit report and the working papers found that the
      audit was adequately planned and the working papers generally supported the audit report conclusions in
      accordance with generally accepted U.S. Government accounting standards and required guidelines. No
      significant deficiencies were identified, but several matters received comments.

      (Quality Control Review—M-000-09-002-Q)

      Vanuatu. The MCA-Vanuatu audit covered $552,389 for the period from July 1 to December 31, 2007. The
      5-year compact for $65 million will strengthen transportation infrastructure and institutions.

      The MCA-Vanuatu audit disclosed ineligible costs of $2,966 and unsupported costs of $2,388. The ineligible
      costs had been paid but not used by December 31, 2007. The unsupported costs relate to assets not
      insured as required by the compact.

      In addition, OIG questioned $38,045 for employee bonuses that were not supported by documentation to
      validate that the bonuses were based on employee performance.

      Internal control deficiencies include:

           • 	 No evidence of petty cash count.
           • 	 Reimbursement of imprest has not been allocated to the correct account.
           • 	 Airfare expenditure that was paid but subsequently cancelled was treated as an expense for the
               period.

      Compliance deficiencies documented in the report include:

           • 	 Not all assets were insured as required by the compact.
           • 	 Steering committee meeting minutes were not posted to MCA-Vanuatu’s Web site.
           • 	 Quarterly internal audits have not been undertaken since commencement of the program 

               expenditure.


      OIG has recommended that MCC make a management decision related to the ineligible and unsupported
      costs.

      (Audit Report No. M-000-09-001-N)

      A second audit for MCA-Vanuatu was issued, covering total costs of $11.4 million for the period from
      January 1 to June 30, 2008.

      The audit disclosed ineligible costs of $5,354:

           • 	 Surplus entertainment account funds of $2,646.
           • 	 Unused airline ticket of $2,708, paid but not used.




84   USAID OFFICE OF INSPECTOR GENERAL
The audit also identified two instances of noncompliance:

    •   A Web master has not been appointed by the fiscal agent.
    •   Steering Committee was not posted to the MCA-Vanuatu Web site.

The audit disclosed insignificant deficiencies in internal control.

(Audit Report No. M-000-09-007-N)




                                                            SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   85
86   USAID OFFICE OF INSPECTOR GENERAL
         APPENDIX III

REPORTING REQUIREMENTS—MCC





              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   87

88   USAID OFFICE OF INSPECTOR GENERAL
FINANCIAL AUDIT REPORTS ISSUED—MCC

October 1, 2008—March 31, 2009


    Report               Date of                                                                                      Amount of           Type of
    Number               Report                                      Report Title                                     Findings ($)        Findings
                                                     PROGRAMS AND OPERATIONS
 M-000-09-001-C         11/17/08        Audit of MCC’s Financial Statements, Internal Controls, and
                                        Compliance for the Periods ending September 30, 2008, and
                                        2007
                                                   FOREIGN GOVERNMENT ENTITIES
 M-000-09-001-N         10/10/08        Vanuatu: Audit of the MCC Resources Managed by Millennium                        41,011               IE
                                        Challenge Account-Vanuatu (MCA-Vanuatu), under the Compact
                                                                                                                          2,369              US
                                        Agreement Between the MCC and the Government of Vanuatu
                                        from July 1, 2007 to December 31, 2007
 M-000-09-002-N         10/29/08        Ghana: Audit of the MCC Resources Managed by Millennium
                                        Challenge Authority-Ghana (MiDA-Ghana), Under the Compact
                                        Agreement Between the MCC and the Government of the
                                        Republic of Ghana from January 1, 2008, to June 30, 2008
 M-000-09-003-N         11/10/08        Madagascar: Audit of the MCC Resources Managed by
                                        Millennium Challenge Account-Madagascar (MCA-Madagascar),
                                        Under the Compact Agreement Between the MCC and the
                                        Government of the Republic of Madagascar from January 1, 2008,
                                        to June 30, 2008
 M-000-09-004-N         11/24/08        El Salvador: Audit of the MCC Resources Managed by                               56,804              US
                                        Millennium Challenge Account-El Salvador (MCA-El Salvador),
                                        Under the Compact Agreement Between the MCC and the
                                        Government of El Salvador from January 1, 2008, to
                                        June 30, 2008
 M-000-09-005-N         11/24/08        Benin: Audit of the MCC Resources Managed by Millennium                           8,313               IE
                                        Challenge Account-Benin (MCA-Benin), Under the Compact
                                        agreement between the MCC and the Government of Benin
                                        from January 1, 2008, to June 30, 2008
 M-000-09-006-N         12/02/08        Nicaragua: Audit of the MCC Resources Managed by Millennium
                                        Challenge Account-Nicaragua (MCA-Nicaragua), Under the
                                        Compact Agreement Between the MCC and the Government of
                                        Nicaragua from January 1, 2008, to
                                        June 30, 2008
 M-000-09-007-N         12/02/08        Vanuatu: Audit of the MCC Resources Managed by the                                5,354               IE
                                        Millennium Challenge Account-Vanuatu (MCA-Vanuatu),
                                        Under the Compact Agreement Between the MCC and the
                                        Government of Vanuatu from January 1, 2008, to June 30, 2008




  IE—Ineligible costs: Explicitly questioned because they are unreasonable; prohibited by the compact and related agreements or applicable laws
  and regulations or are not program related.

  US—Unsupported costs: Costs that are questioned because at the time of the audit the costs are not supported by adequate documentation.


                                                                   Appendix III




                                                                             SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009       89

         Report               Date of                                                                                       Amount of           Type of
         Number               Report                                       Report Title                                     Findings ($)        Findings
      M-000-09-008-N          12/22/08        Armenia: Audit of the MCC Resources Managed by the
                                              Millennium Challenge Account-Armenia S.N.C.O.
                                              (MCA-Armenia), Under the Compact Agreement Between the
                                              MCC and the Government of Armenia from January 1, 2007 to
                                              June 30, 2007
      M-000-09-009-N          12/23/08        Cape Verde: Audit of the MCC Resources Managed by                                23,542               IE
                                              Millennium Challenge Account-Cape Verde (MCA-Cape Verde),
                                              Under the Compact Agreement Between the MCC and the
                                              Government of Cape Verde from July 1, 2007 to
                                              December 31, 2007
      M-000-09-010-N          12/24/08        Honduras: Audit of the MCC Resources Managed by Millennium
                                              Challenge Account-Honduras (MCA-Honduras), Under the
           Rev. 1
                                              Compact Agreement Between the MCC and the Government of
                                              the Republic of Honduras from January 1, 2008, to June 30, 2008
      M-000-09-011-N          01/29/09        Georgia: Audit of the Millennium Challenge Corporation
                                              (MCC) Resources managed by Millennium Challenge Fund
                                              Georgia (MCG), Under the Compact Agreement Between the
                                              MCC and the Government of Georgia from January 1, 2008, to
                                              June 30, 2008
     M-000-09-0121-N          03/17/09        Lesotho: Audit of the MCC Resources Managed by Millennium                        56,009              US
                                              Challenge Account-Lesotho (MCA-Lesotho), Under the Compact
                                              Agreement Between the MCC and the Government of Lesotho
                                              from July 23, 2007 to June 30, 2008
      M-000-09-013-N          03/19/09        Mali: Audit of the MCC Resources Managed by Millennium                           20,975              US
                                              Challenge Account-Mali (MCA-Mali), Under the Compact
                                              Agreement Between the MCC and the Government of Mali from
                                              January 1, 2008 to June 30, 2008




        IE—Ineligible costs: Explicitly questioned because they are unreasonable; prohibited by the compact and related agreements or applicable laws 

        and regulations or are not program related.


        US—Unsupported costs: Costs that are questioned because at the time of the audit the costs are not supported by adequate documentation.



                                                                         Appendix III



90   USAID OFFICE OF INSPECTOR GENERAL
PERFORMANCE AUDIT REPORTS ISSUED—MCC
October 1, 2008—March 31, 2009
   Report         Date of                                                                     Amount of         Type of
   Number         Report                            Report Title                              Findings ($)      Findings
 M-000-09-001-P   12/24/08   Audit of the MCC Programs in Honduras

 M-000-09-002-P   03/31/09   Audit of the Millennium Challenge Corporation’s Programs in
                             Cape Verde




                                                  Appendix III



                                                           SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   91
     MISCELLANEOUS AUDIT REPORTS ISSUED—MCC

     October 1, 2008—March 31, 2009

     Quality Control       Date of                                                                           Amount of      Type of
     Review Number         Report                                  Report Title                              Findings ($)   Findings
                                                         QUALITY CONTROL REVIEW
      M-000-09-001-Q       10/03/08      Georgia: Quality Control Review of “Audit of the Fund
                                         Accountability Statement of the MCC Resources Managed by
                                         MC-Georgia, Under the Compact Agreement dated
                                         September 12, 2005, Between MCC and the Government
                                         of Georgia for the period from July 1, 2007 to December 31, 2007”
      M-000-09-002-Q       10/07/08      Armenia: Quality Control Review of “Audit of the Fund
                                         Accountability Statement of the MCC Resources Managed
                                         by MCA-Armenia, Under the Compact Agreement dated
                                         March 27, 2006 Between MCC and the Government of Armenia for
                                         the period from July 1, 2007 to December 31, 2007”
      M-000-09-003-Q       03/25/08      Nicaragua: Quality Control Review of “Audit of the Fund
                                         Accountability Statement of the MCC Resources Managed by MCA-
                                         Nicaragua, Under the Compact Agreement dated July 14, 2005
                                         Between MCC and the Government of the Republic of Nicaragua
                                         for the period from January 1, 2008, to June 30, 2008”




                                                                 Appendix III




92   USAID OFFICE OF INSPECTOR GENERAL
UNSUPPORTED, QUESTIONED, OR DISALLOWED COSTS OF OVER $10 MILLION OR OTHER 

SIGNIFICANT FINDINGS—MCC

October 1, 2008—March 31, 2009


                                                                    Number of
                      Reports                                      Audit Reports             Dollar Value




                                NOTHING TO REPORT





                                     Appendix III




                                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   93

     AUDIT REPORTS OVER 6 MONTHS OLD WITH NO MANAGEMENT DECISION—MCC
     As of March 31, 2009

         Report                             Issue                                    Current
         Number                Auditee      Date                               Recommendation Status
      M-000-08-008-N      MCA-Cape Verde   04/25/08   This audit of the fund accountability statement contained one
                                                      recommendation. The recommendation requires a corrective action plan to
                                                      address certain internal control and noncompliance issues.

                                                      Working with MCA management, MCC has developed the corrective action
                                                      plan.

                                                      MCC is preparing the formal documents to transmit the corrective action
                                                      plan. MCC will submit the required memorandum in April 2009.
      M-000-08-012-N         MCA-Benin     06/23/08   This audit of the fund accountability statement contained two
                                                      recommendations.

                                                      Recommendation No. 1 requested a corrective action plan to correct the
                                                      significant deficiency in internal control documented in the audit section,
                                                      “Report on Internal Control.”

                                                      Recommendation No. 2 requested that MCC verify that the compact fund
                                                      managers have corrected certain issues related to noncompliance.

                                                      Working with MCA, MCC resolved the issues as documented by a
                                                      subsequent fund accountability statement audit.

                                                      MCC is preparing a formal memorandum to document the management
                                                      decision and final action.

                                                      MCC will submit the required memorandum in April 2009.
      M-000-08-014-N        MCA-Vanuatu    07/03/08   This fund accountability statement audit contained two recommendations.

                                                      Recommendation No. 1 requested a corrective action plan to correct
                                                      the material noncompliance contained in the audit section,“Independent
                                                      Auditor’s Report on Compliance.”

                                                      Working with MCA, MCC has resolved the issues as documented by a
                                                      subsequent fund accountability statement audit.

                                                      MCC is preparing a formal memorandum defining the basis for the
                                                      management decision and final action. MCC will submit the required
                                                      memorandum in April 2009.

                                                      Recommendation No. 2 concerned questioned costs in the amount of
                                                      $3,184; final action was recorded in January 2009.




                                                          Appendix III



94   USAID OFFICE OF INSPECTOR GENERAL
   Report                          Issue                                    Current
   Number           Auditee        Date                               Recommendation Status
M-000-08-015-N   MCA-Cape Verde   07/28/08   This fund accountability statement audit contained a recommendation
                                             requesting a corrective action plan to address recurring findings of
                                             noncompliance. This recommendation is related to an earlier report,

                                             M-000-08-008-N of April 25, 2008.

                                             Working with MCA, MCC resolved the outstanding issues as documented by
                                             a subsequent fund accountability statement audit.

                                             MCC is preparing formal documents to establish the management decision
                                             and final action. MCC plans to complete the required actions during
                                             April 2009.
M-000-08-016-N   MCA-Nicaragua    07/28/08   This fund accountability statement audit contained a recommendation
                                             requesting a corrective action plan to address internal control deficiencies
                                             documented in the section,“Report on Internal Control.”

                                             MCC stated that the issues were resolved, working with MCA, as
                                             documented by a subsequent fund accountability statement audit.

                                             MCC is preparing formal documents to establish the management decision
                                             and final action. MCC plans to complete the required actions during
                                             April 2009.
M-000-08-017-N   MCA-Madagascar   07/28/08   This fund accountability statement audit contained two recommendations.

                                             Recommendation No. 1 requested a corrective action plan to correct
                                             the material noncompliance contained in the audit section,“Independent
                                             Auditor’s Report on Compliance.”

                                             Recommendation No. 2 concerned $40,350 in ineligible costs and
                                             $57,012 in unsupported costs.

                                             MCC has received the necessary information from MCA and is preparing
                                             a formal submission on the management decision and final action for these
                                             recommendations. MCC plans to complete the required actions during
                                             April 2009.
M-000-08-019-N    MiDA-Ghana      08/08/08   This fund accountability statement audit contained three recommendations.

                                             Recommendation No. 1 requested a corrective action plan to address
                                             significant internal control deficiencies documented in the section,“Report
                                             on Internal Control” and material instances of noncompliance described in
                                             the section,“Report on Compliance.”

                                             Recommendation No. 2 addressed recurring instances of internal control
                                             and noncompliance.

                                             Recommendation No. 3, concerning questioned costs, reached a
                                             management decision and final action in January 2009.

                                             MCC received relevant information when it resolved the third
                                             recommendation and has prepared a corrective action plan for the
                                             outstanding recommendations. MCC expects to complete the required
                                             actions and forward the corrective action plan to OIG by the end of
                                             May 2009.


                                                 Appendix III



                                                          SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   95
     SIGNIFICANT AUDIT RECOMMENDATIONS DESCRIBED IN PREVIOUS SEMIANNUAL
     REPORTS WITHOUT FINAL ACTION—MCC
     As of March 31, 2009
                                                                                                                   Final
                                                                                                     Management   Action
        Report                                                                    Rec.     Issue      Decision    Target
        Number                        Subject of Report                          Number    Date         Date       Date
     M-000-08-004-P     Audit of the MCC’s Compliance with the                     2      09/26/08     09/26/08    09/09
                        Provisions of the Federal Information Security             8                   09/26/08    09/09
                        Management Act for Fiscal Year 2007                        9                   09/26/08    09/09
                                                                                  12                   09/26/08    09/09
                                                                                  13                   09/26/08    09/09
                                                                                  14                   09/26/08    09/09
     M-000-08-008-N     Audit of the MCC Resources Managed by                      1      04/25/08     Pending     04/09
                        MCA-Cape Verde, Under the Compact Agreement
                        Between the MCC and the Government of Cape
                        Verde from July 1, 2006 to December 31, 2006
     M-000-08-012-N     Audit of the MCC Resources Managed by                      1      06/23/08     Pending     06/09
                        MCA-Benin Under the Compact Agreement                      2                   Pending     06/09
                        Between MCC and the Government of Benin from
                        July 1, 2007 to December 31, 2007
     M-000-08-014-N     Audit of the MCC Resources Managed by                      1      07/03/08     Pending     07/09
                        MCA-Vanuatu Under the Compact Agreement
                        Between MCC and the Government of Vanuatu
                        from January 1, 2007 to June 30, 2007
     M-000-08-015-N     Audit of the MCC Resources Managed by                      1      07/28/08     Pending     07/09
                        MCA-Cape Verde Under the Compact Agreement
                        Between MCC and the Government of Cape
                        Verde from January 1, 2007 to June 30, 2007
     M-000-08-016-N     Audit of the MCC Resources Managed by                      1      07/28/08     Pending     07/09
                        MCA-Nicaragua Under the Compact Agreement
                        Between MCC and the Government of Nicaragua
                        from July 1, 2007 to December 31, 2007
     M-000-08-017-N     Audit of the MCC Resources Managed by                      1      07/28/08     Pending     07/09
                        MCA-Madagascar Under the Compact Agreement                 2
                        Between MCC and the Government of Madagascar
                        from July 1, 2007 to December 31, 2007
     M-000-08-017-N     Audit of the MCC Resources Managed by                      1      07/28/08     Pending     07/09
                        MCA-Madagascar Under the Compact Agreement                 2                   Pending     07/09
                        Between MCC and the Government of Madagascar
                        from July 1, 2007 to December 31, 2007
     M-000-08-019-N     Audit of the MCC Resources Managed by                      1      08/08/08     Pending     08/09
                        MiDA-Ghana Under the Compact Agreement                     2                   Pending     08/09
                        Between MCC and the Government of Ghana
                        from January 1, 2007 to December 31, 2007




                                                                  Appendix III



96   USAID OFFICE OF INSPECTOR GENERAL
REPORTS ISSUED WITH QUESTIONED AND UNSUPPORTED COSTS—MCC
October 1, 2008—March 31, 2009
                                                                               Number
                                                                               of Audit          Questioned           Unsupported
                                Reports                                        Reports           Costs1 ($)            Costs2 ($)
A. For which no management decision had been made as of                             3             2,343,480                269,874
   October 1, 2008
B.   Add: Reports issued October 1, 2008, through                                   7               214,377                174,202
     March 31, 2009
     Subtotal                                                                     10              2,557,857                444,076
C. Less: Reports with a management decision made                                    5             2,351,656                310,080
   October 1, 2008, through March 31, 2009

     i.    Value of recommendations disallowed by Agency officials                                2,061,521                    28,265

     ii.   Value of recommendations allowed by Agency officials                                     290,135                281,815

D. For which no management decision had been made as of                             5               206,201                133,996
   March 31, 2009




     1.	   Questioned costs less than $1,000 are not included.

     2.	   Unsupported costs are included in questioned costs, but are provided as additional information as required by the
           Inspector General Act Amendments of 1988 (Public Law 100–504).




                                                              Appendix III



                                                                       SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   97
     REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE—MCC

     October 1, 2008—March 31, 2009


                                                                         Number of
                                         Reports                        Audit Reports   Amount ($)




                                                   NOTHING TO REPORT





                                                        Appendix III




98   USAID OFFICE OF INSPECTOR GENERAL
   APPENDIX IV

SUMMARY TABLE—MCC





          SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   99

100   USAID OFFICE OF INSPECTOR GENERAL
FRAUD AWARENESS BRIEFINGS CONDUCTED FOR MCC
As of March 31, 2009

                                                                               Professional
    Month          Location         Sessions       Attendees                    Affiliation
     OCT        Washington, DC         1                  25          MCC personnel

     NOV                               NOTHING TO REPORT

     DEC        Rangoon, Burma         1                  64          MCC and MCA personnel

     JAN       Managua, Nicaragua      2                  74          MCC and MCA personnel

     FEB                               NOTHING TO REPORT

     MAR                               NOTHING TO REPORT


                     Total             4                163




                                     Appendix IV



                                            SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   101
102   USAID OFFICE OF INSPECTOR GENERAL
 APPENDIX V

ABBREVIATIONS





       SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   103

104   USAID OFFICE OF INSPECTOR GENERAL
ABBREVIATIONS

  ARV        antiretroviral
  DR-CAFTA   Dominican Republic–Central America–United States Free Trade Agreement
  EWS        Early Warning System
  FIDE       Foundation for Investment and Development of Exports
  FY         fiscal year
  HIV/AIDS   human immunodeficiency virus/acquired immunodeficiency syndrome
  IAF        Inter-American Foundation
  ICCTF      International Contract and Corruption Fraud Task Force
  IE         ineligible costs
  IG         Inspector General
  IT         information technology
  MCA        Millennium Challenge Account Fund
  MCA-CV     Millennium Challenge Account-Cape Verde
  MCA-H      Millennium Challenge Account-Honduras
  MCC        Millennium Challenge Corporation
  MCG        Millennium Challenge Account-Georgia
  MiDA       Millennium Development Authority
  NGO        nongovernmental organization
  NPFTF      National Procurement Fraud Task Force
  OIG        Office of Inspector General
  OMB        Office of Management and Budget
  PEPFAR     President’s Emergency Plan for AIDS Relief
  PSC        private security contractors
  RIG        regional inspector general
  TIC        Trade, Investment, and Competitiveness
  US         unsupported costs
  USADF      United States African Development Foundation
  USAID      U.S. Agency for International Development
  WMAS       Watershed Management and Agricultural Support




                                   Appendix V



                                          SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2008—March 31, 2009   105
         U.S.Agency for International Development 

                Ofﬁce of Inspector General 

                1300 Pennsylvania Avenue, NW 

                         Room 6.6D 

                   Washington, DC 20523


                       www.usaid.gov/oig




The Semiannual Report to the Congress is available on the Internet at 

    www.usaid.gov/oig/public/semiann/semiannual_recent.htm

